<html>
<title> - A REVIEW OF AND UPDATE ON THE MANAGEMENT OF FAA'S NEXTGEN PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                     A REVIEW OF AND UPDATE ON THE
                  MANAGEMENT OF FAA'S NEXTGEN PROGRAM

=======================================================================

                               (112-103)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 12, 2012

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation



                  U.S. GOVERNMENT PRINTING OFFICE
75-851                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="fa9d8a95ba998f898e929f968ad4999597d4">[email&#160;protected]</a>  

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    JOHN L. MICA, Florida, Chairman
DON YOUNG, Alaska                    NICK J. RAHALL II, West Virginia
THOMAS E. PETRI, Wisconsin           PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
FRANK A. LoBIONDO, New Jersey            Columbia
GARY G. MILLER, California           JERROLD NADLER, New York
TIMOTHY V. JOHNSON, Illinois         CORRINE BROWN, Florida
SAM GRAVES, Missouri                 BOB FILNER, California
BILL SHUSTER, Pennsylvania           EDDIE BERNICE JOHNSON, Texas
SHELLEY MOORE CAPITO, West Virginia  ELIJAH E. CUMMINGS, Maryland
JEAN SCHMIDT, Ohio                   LEONARD L. BOSWELL, Iowa
CANDICE S. MILLER, Michigan          TIM HOLDEN, Pennsylvania
DUNCAN HUNTER, California            RICK LARSEN, Washington
ANDY HARRIS, Maryland                MICHAEL E. CAPUANO, Massachusetts
ERIC A. ``RICK'' CRAWFORD, Arkansas  TIMOTHY H. BISHOP, New York
JAIME HERRERA BEUTLER, Washington    MICHAEL H. MICHAUD, Maine
RANDY HULTGREN, Illinois             RUSS CARNAHAN, Missouri
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
CHIP CRAVAACK, Minnesota             DANIEL LIPINSKI, Illinois
BLAKE FARENTHOLD, Texas              MAZIE K. HIRONO, Hawaii
LARRY BUCSHON, Indiana               JASON ALTMIRE, Pennsylvania
BILLY LONG, Missouri                 TIMOTHY J. WALZ, Minnesota
BOB GIBBS, Ohio                      HEATH SHULER, North Carolina
PATRICK MEEHAN, Pennsylvania         STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           LAURA RICHARDSON, California
JEFFREY M. LANDRY, Louisiana         ALBIO SIRES, New Jersey
STEVE SOUTHERLAND II, Florida        DONNA F. EDWARDS, Maryland
JEFF DENHAM, California
JAMES LANKFORD, Oklahoma
REID J. RIBBLE, Wisconsin
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
VACANCY
                                ------                                7

                        Subcommittee on Aviation

                  THOMAS E. PETRI, Wisconsin, Chairman
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       RUSS CARNAHAN, Missouri
FRANK A. LoBIONDO, New Jersey        DANIEL LIPINSKI, Illinois
SAM GRAVES, Missouri                 PETER A. DeFAZIO, Oregon
JEAN SCHMIDT, Ohio                   BOB FILNER, California
RANDY HULTGREN, Illinois             EDDIE BERNICE JOHNSON, Texas
CHIP CRAVAACK, Minnesota, Vice       LEONARD L. BOSWELL, Iowa
    Chair                            TIM HOLDEN, Pennsylvania
BLAKE FARENTHOLD, Texas              MICHAEL E. CAPUANO, Massachusetts
BILLY LONG, Missouri                 MAZIE K. HIRONO, Hawaii
PATRICK MEEHAN, Pennsylvania         STEVE COHEN, Tennessee
STEVE SOUTHERLAND II, Florida        ELEANOR HOLMES NORTON, District of 
JAMES LANKFORD, Oklahoma                 Columbia
JOHN L. MICA, Florida (Ex Officio)   NICK J. RAHALL II, West Virginia
REID J. RIBBLE, Wisconsin              (Ex Officio)
CHARLES J. ``CHUCK'' FLEISCHMANN, 
    Tennessee
VACANCY


                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    iv

                               TESTIMONY
                                Panel 1

Hon. John D. Porcari, Deputy Secretary, U.S. Department of 
  Transportation.................................................     6
Hon. Michael P. Huerta, Acting Administrator, Federal Aviation 
  Administration.................................................     6
Hon. Calvin L. Scovel III, Inspector General, U.S. Department of 
  Transportation.................................................     6
Gerald L. Dillingham, Ph.D., Director, Physical Infrastructure 
  Issues, Government Accountability Office.......................     6

                                Panel 2

David J. Barger, President and Chief Executive Officer, JetBlue 
  Airways Corporation............................................    31
Paul Rinaldi, President, National Air Traffic Controllers 
  Association....................................................    31
Ed Bolen, President and Chief Executive Officer, National 
  Business Aviation Association..................................    31
Susan M. Baer, Director of Aviation, Port Authority of New York 
  and New Jersey.................................................    31

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Russ Carnahan, of Missouri..................................    45
Hon. Jerry F. Costello, of Illinois..............................    48
Hon. Eddie Bernice Johnson, of Texas.............................    52

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. John D. Porcari and Hon. Michael P. Huerta, joint statement.    54
Hon. Calvin L. Scovel III........................................    66
Gerald L. Dillingham, Ph.D.......................................    81
David J. Barger..................................................   104
Paul Rinaldi.....................................................   116
Ed Bolen.........................................................   124
Susan M. Baer....................................................   129

                       SUBMISSIONS FOR THE RECORD

Hon. Michael P. Huerta, Acting Administrator, Federal Aviation 
  Administration:

        Responses to questions from Hon. Frank A. LoBiondo, a 
          Representative in Congress from the State of New Jersey    59
        Responses to questions from Hon. Reid J. Ribble, a 
          Representative in Congress from the State of Wisconsin.    64

                         ADDITION TO THE RECORD

Marion C. Blakey, President and Chief Executive Officer, 
  Aerospace Industries Association of America, written testimony.   133

[GRAPHIC] [TIFF OMITTED] T5851.001

[GRAPHIC] [TIFF OMITTED] T5851.002

[GRAPHIC] [TIFF OMITTED] T5851.003

[GRAPHIC] [TIFF OMITTED] T5851.004

[GRAPHIC] [TIFF OMITTED] T5851.005

[GRAPHIC] [TIFF OMITTED] T5851.006

[GRAPHIC] [TIFF OMITTED] T5851.007

[GRAPHIC] [TIFF OMITTED] T5851.008

[GRAPHIC] [TIFF OMITTED] T5851.009

[GRAPHIC] [TIFF OMITTED] T5851.010

[GRAPHIC] [TIFF OMITTED] T5851.011

[GRAPHIC] [TIFF OMITTED] T5851.012



                     A REVIEW OF AND UPDATE ON THE
                  MANAGEMENT OF FAA'S NEXTGEN PROGRAM

                              ----------                              


                     WEDNESDAY, SEPTEMBER 12, 2012

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m. in 
Room 2167, Rayburn House Office Building, Hon. Thomas E. Petri 
(Chairman of the subcommittee) presiding.
    Mr. Petri. The hearing will commence. And my colleague, Mr. 
Costello, will be here shortly, but I will begin with my 
opening statement. And I suspect that by the time I am 
finished, he will be here and we will be able to benefit from 
that, as well.
    Today the subcommittee will hear from Government and 
aviation industry stakeholders on the FAA's management of and 
progress toward transforming our Nation's air traffic control 
system. This program, known as NextGen, is among the largest 
and most ambitious public works projects in our Nation's 
history. The successful implementation of NextGen is critical 
to the future of our air transportation system and U.S. 
competitiveness in the global marketplace.
    Today our air traffic control system is very inefficient. 
In order to accommodate the roughly 730 million passengers each 
year and 70,000 flights each day, we need to modernize our 
system. NextGen will transform air transportation by 
transitioning to a satellite-based surveillance system, 
improving communications between pilots and controllers, and 
developing more efficient navigation routes from start to 
finish.
    The goal is to create a system that is safer, less impacted 
by weather conditions, better for the environment, and more 
consistent, with fewer delays. The FAA has made some progress, 
but it also faces significant challenges. FAA is currently 
spending roughly $1 billion each year to develop and implement 
what we call NextGen. The aviation industry will have to invest 
billions of dollars to equip their aircraft with the avionics 
from which the benefits of NextGen will be derived. 
Unfortunately, the FAA's progress is slower than expected. And, 
as a result, the industry has been reluctant to invest.
    Today's hearing will focus on the benefits that the FAA has 
delivered to airspace users. The witnesses will discuss FAA's 
progress with major transformational and NextGen programs. 
Likewise, the witnesses will discuss challenges the FAA is 
facing in the implementation of these programs, many of which 
are outlined in recent Department of Transportation inspector 
general and General Accounting Office reports.
    It is very clear that everyone, including industry, FAA, 
and Congress, wants NextGen to succeed. The FAA Modernization 
and Reform Act enacted earlier this year devoted an entire 
title to NextGen. Among the many reforms included in the law is 
the creation of new leadership positions within the FAA that 
are responsible and accountable for NextGen implementation, and 
requirements for the FAA to define performance metrics to 
measure progress and to establish operational or financial 
incentives for avionics equipage.
    Like other major infrastructure programs, NextGen is 
expensive and hard. This is further complicated by the tight 
Federal budget. But, according to the Department of 
Transportation Inspector General, funding has not been a 
problem. And certainly congressional support for NextGen 
remains strong.
    At the end of the day, the FAA must overcome the challenges 
and get the job done. The success or failure of NextGen depends 
on cooperation from everyone involved. And while we need to 
make more progress, nobody thought this would be easy. And I 
look forward to hearing from the witnesses, and I thank each of 
you for your participation here today.
    And before we turn to the witnesses for their statements, I 
ask unanimous consent that all Members have 5 legislative days 
to revise and extend their remarks and include extraneous 
material for the record.
    [No response.]
    Mr. Petri. Without objection, so ordered. And before 
recognizing Mr. Costello, I would just like to note that over 
the 6 years that we have led this subcommittee, he as chairman 
and me as ranking, or with the situation in reverse this last 
Congress, we have been committed to working together on a 
bipartisan basis to provide proper oversight and to ensure that 
NextGen continues to move forward. This was the case when he 
was chairman, and it continues today. This will be the last 
NextGen oversight hearing that we will preside over together on 
this subcommittee, and I thank him for his diligence and his 
hard work on this issue over many, many years.
    And with that, I now recognize Mr. Costello for his opening 
remarks.
    Mr. Costello. Mr. Chairman, thank you. Mr. Chairman, I have 
a formal statement that I will enter into the record, and make 
some brief remarks.
    But I do want to state for the record that the chairman is 
correct. This project, NextGen, is a major project, one of the 
most difficult undertakings that the FAA and the Department has 
attempted to undertake in many, many years, if ever. And we 
have worked very closely together. I think that other 
committees and subcommittees and the Congress in general could 
learn some--a few things by watching how this subcommittee has 
operated. It has been bipartisan, both when I chaired it--I 
also reached out to--not only to my ranking member, Mr. Petri, 
but also Members on the other side of the aisle. And Chairman 
Petri, since he has taken the committee over, he has done the 
same. He has consulted me, he has worked with Members on our 
side of the aisle. So it truly has been bipartisan.
    And I have said publicly before that I could not have had a 
better partner on this subcommittee, both as chairman and when 
he was my ranking member. And he has been more than fair with 
me and with our side of the aisle since he has been chairman. 
So I appreciate all of the courtesies and the friendship that 
we have established.
    Mr. Chairman, thank you for calling the hearing today. As 
you know, as we have discussed in the past, and most people in 
this room who have followed and have been involved in NextGen, 
they know that I have said many times that the best way to keep 
NextGen on track is for us to hold everyone involved 
accountable for their actions, that we develop a plan to 
implement NextGen, and that for--this subcommittee needs to 
make certain that we monitor the progress.
    When I chaired the subcommittee, we held multiple hearings, 
roundtables. We had a lot of discussions when we started 
calling hearings, actually, and roundtables. It was very clear 
to me that the stakeholders, the people that were going to run 
the system, the people who, in fact, were involved in the 
system, were not at the table. They were not consulted, which 
concerned me and concerned Mr. Petri, as well.
    I thought it was crazy to try and design a multibillion-
dollar system using taxpayers' money without involving those 
who, in fact, would operate the system. And, in fact, in one of 
our early roundtables, Mr. Petri will recall, I asked one of 
the people from the FAA to describe what NextGen was.
    Mr. Petri. I very much remember that.
    Mr. Costello. In layman's terms. And the individual could 
not describe what NextGen was in layman's terms. In fact, he 
couldn't describe it at all.
    So, we knew we had a problem on our hands at that point. 
And we came together and we have held a number of hearings. It 
is my hope that in the next Congress, with, I hope, Mr. Petri 
as chairman of this subcommittee, that we will hold--you will 
hold additional hearings in the future, to make certain that 
the stakeholders are involved, everyone is working together.
    And we have, in fact, achieved and seen a lot of progress 
since those early days. We have come a long way, but we have a 
long way to go. And I trust that the subcommittee will stay 
actively involved and will provide the oversight that is 
necessary.
    So, with that, Mr. Chairman, I am yielding back the balance 
of my time, looking forward to hearing our witnesses.
    Mr. Petri. Thank you. Chairman of the full committee, John 
Mica.
    Mr. Mica. Thank you, Mr. Chairman, for holding this 
hearing, and Mr. Costello, for your leadership. In fact, we are 
going to miss you. We are getting towards the end here of the 
Costello regime. But you guys have--both of you provided great 
leadership to this committee and to aviation. We wouldn't have 
had an FAA reauthorization without your help, even though it 
was very difficult to pass that bill and to get the President--
although he did it in the dark of night on February 14th, never 
sent me flowers or candy, but we did get the bill done.
    And one of the most important components of the FAA 
reauthorization which was stalled again--unfortunately, Mr. 
Oberstar could not move it when he had the House, the Senate, 
and the White House, and before that 4 years on the other side, 
17 extensions.
    But one of the most important aspects of not passing that 
legislation was not having a blueprint, a formal blueprint, 
which the FAA authorization provides. And we found in our 
review that we needed desperately to have milestones, that we 
need to hold people's feet to the fire, put folks in charge. 
And we did just that with the bill, and the bill has provided a 
framework to move forward. It has been the law since February.
    But now we find ourselves looking at the progress that has 
been made. Some you might--some of the blame for not moving 
forward you might assign to Congress for not having the bill 
and the policy in place. But nonetheless, it also requires FAA, 
in its management and leadership role, to act and to provide 
the administrative and executive leadership to get the--this 
important program an advancement, taking us from a ground post-
World War II radar-based system into a satellite 21st-century 
system.
    Simple thing is--well, let me say two things. One, a few 
weeks ago we had some near misses. I guess one was at Reagan. 
But we see them--unfortunately, they are all too common 
occurrences with aircraft flying close together and near 
misses, near misses on the ground. And we have only to realize 
that we will be doubling some of the air traffic over the next 
couple of decades, and that we will have more planes in the 
air, we will have more congestion, and our good fortunes to 
date of not having a major incident in which we lose a large 
number of lives is--I think that good luck is about running 
out.
    So, shame on Congress for not having acted earlier, the 
administration on not acting earlier. But now we have the 
blueprint in place.
    The report by the inspector general does highlight, quite 
frankly, a lack of leadership combined with a bureaucratic--
just stalemate, as the FAA fails to move forward on some 
aspects of getting this new equipment and technology in place. 
And it is not acceptable, period.
    Now, I know we have got a stalemate in the position of--a 
major position of leadership. But that is not an excuse. This 
isn't an excuse that Congress hasn't provided. When the policy 
or, two, the funding, both are in place--and now what we need 
is moving forward and, again, making certain that the hardware, 
the software, the systems, and the equipment, and all of the 
above, as they are in--as they are developed, that they are 
also deployed in an expeditious fashion.
    Another point that I want to make here, too--and I will do 
everything I can to keep FAA out of the development of the 
technology itself--FAA should not be developing this 
technology, or step in the way of its development. This we have 
seen time and time again, that the private sector does a better 
job. So we have got to keep the private sector in the forefront 
with somebody making the decisions and meeting the milestones 
and, again, the blueprint that has been set out by law.
    So, we will hold this hearing, additional hearings, and 
hold FAA's feet to the fire. The safety of the flying public, 
the future of aviation, relies on this.
    And finally, this is a contest in which, right now, we are 
maybe slightly a little bit ahead. And it is not because of 
what we have done--because we haven't done what we should, and 
FAA hasn't provided the leadership--but this is an 
international contest to dominate the field of development of 
next generation air traffic control technology.
    This is a contest. The European Union and others who are 
trying to win this contest, only by their even grosser use of 
bureaucracy and constraints by bureaucracy, only because they 
are worse than we are, we are slightly ahead, in my estimation, 
in this process.
    But this will determine who controls the market, both 
domestically, in changing out the--again, all of the equipment, 
the software systems--domestically in the United States, and 
long term, the whole world--and that is very important for 
jobs, for economic opportunity for the future, and for the 
future of aviation in the Nation and the world.
    So, this is a critical mission. We are here to--we are 
going to hear today from the inspector general on some of the 
shortcomings. We need to mark each of these shortcomings and 
check them off and not tolerate them as we move forward in this 
process. So again, I am--I intend--and I will be here, 
unfortunately for some folks--but I will hold people's feet to 
the fire--ask Mr. Petri and others on the committee for also 
holding FAA's feet to the fire. We are going to get this done, 
one way or the other.
    Thank you, and I yield back.
    Mr. Petri. Representative Bernice Johnson, Texas.
    Ms. Johnson. Thank you very much, Mr. Chairman. And thank 
you for holding this hearing.
    With this year's passage of the FAA reauthorization bill, 
NextGen modification, modernization, will transform the 
national airspace system. Through NextGen satellite-based 
traffic management, we will be able to address increased 
congestion in our Nation's skies, while improving safety and 
reducing environmental footprint of air transport.
    Transitioning to the GPS-based air traffic control system 
will allow airlines to reduce flight delays, save fuel, and cut 
the amount of harmful emissions from aircraft engines. In 
addition, the successful implementation of NextGen will boost 
our economy and enable the creation of more jobs.
    The Dallas Metroplex is a prime example of the significant 
growth in the aviation market, and the potential benefits of 
NextGen deployment. As with any metroplex, this growth comes 
with growing pains. Metroplex sites, by their nature, are 
located in busy, metropolitan areas. NextGen's use of 
satellite-based technology is developing more efficient and 
direct routes in and out of these major airports.
    With this efficiency comes with shorter travel times for 
passengers, fuel savings for airlines, and decreases in 
emissions for the environment. Yet these advances come with a 
hefty price tag. By the FAA's estimates, the development of 
NextGen will require between $20 billion and $27 billion in 
funding from 2012 to 2025. In addition to Federal funding, 
private industry is making significant investments in the 
development of aircraft upgrades and NextGen-capable avionics.
    Both as a member of this committee and as ranking member of 
the House Science, Space, and Technology Committee, as well as 
a conferee on the FAA reauthorization, I recognize making our 
skies safer, less congested, and cleaner will require a 
substantial investment. We must invest in the future. But we 
must invest wisely. I am concerned with the Department of 
Transportation inspector general's April 2012 report that the 
end route automation modernization program implementation 
schedule has slipped by 4 years and over budget by $330 
million.
    In addition, I understand that although progress is being 
made, the agency has had difficulties in developing performance 
metrics for NextGen goals.
    I want to thank you, Chairman Petri and Ranking Member 
Costello, for calling this hearing. And I look forward to the 
testimony of the witnesses today. Because I do believe that we 
need to implement the NextGen technology.
    Thank you, and I yield back.
    Mr. Petri. Thank you. And now we turn to our first panel. 
And I would like to welcome the Honorable John Porcari, who is 
the Deputy Secretary of the U.S. Department of Transportation; 
Michael P. Huerta, Acting Administrator of the FAA. Welcome 
both, to both of you. And our regulars on this panel, the 
inspector general of the U.S. Department of Transportation, the 
Honorable Calvin Scovel, as well as Dr. Gerald Dillingham, 
director, Physical Infrastructure Issues, Government 
Accountability Office.
    Thank you all for being here. Thank you for--and your 
staff, for the effort that went into your prepared statements. 
And, as you know, you are invited to summarize them for--in 
about 5 minutes for the panel before we turn to questioning.
    We will begin with Deputy Secretary Porcari.

   TESTIMONY OF HON. JOHN D. PORCARI, DEPUTY SECRETARY, U.S. 
 DEPARTMENT OF TRANSPORTATION; HON. MICHAEL P. HUERTA, ACTING 
ADMINISTRATOR, FEDERAL AVIATION ADMINISTRATION; HON. CALVIN L. 
       SCOVEL III, INSPECTOR GENERAL, U.S. DEPARTMENT OF 
  TRANSPORTATION; AND GERALD L. DILLINGHAM, PH.D., DIRECTOR, 
   PHYSICAL INFRASTRUCTURE ISSUES, GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Porcari. Thank you. Good morning, Chairman Mica, 
Chairman Petri, Ranking Member Costello, and members of the 
subcommittee. It is a pleasure to be here today to talk about 
the progress that the Department has made in transforming our 
Nation's air transportation system through NextGen.
    As you know, we run the largest and safest air 
transportation system in the world, and we are recognized as a 
global leader in aviation. At the Department of Transportation, 
we continually strive to enhance safety.
    NextGen is one of the largest infrastructure investments in 
the United States today. We are moving from a ground-based 
navigation and surveillance of the last century to a satellite-
based system of the 21st century. NextGen is the way of the 
future, not just for the United States, but for the world. It 
will improve safety, reduce delays, relieve bottlenecks, and 
foster the flow of commerce.
    Our estimates show that by 2020 NextGen improvements will 
reduce delays by 38 percent, as compared to what would happen 
if we didn't do anything. Our forecasts show that airline 
passenger traffic is expected to nearly double in the next 20 
years.
    NextGen prepares us to handle this increased demand on our 
system. The challenges associated with such a complex 
transformation require the right kind of leadership. Acting 
Administrator Michael Huerta has done an outstanding job in the 
last 2 years, intensifying the focus on NextGen within the FAA 
and with our stakeholders. We needed someone who could take the 
many technologies of NextGen from concept to reality, and we 
needed someone who could forge public-private partnerships. 
Michael has done both.
    Under his direction and leadership, we have changed the way 
we manage large acquisition programs, and we have changed the 
NextGen management structure. We are already seeing positive 
results. I applaud Michael for his leadership, and I remain 
hopeful that the Senate will pass his nomination to lead the 
FAA. We need a steady hand, a proven professional at the helm 
to steer us through the many technological changes ahead. 
Confirming Michael Huerta as the Administrator of the FAA would 
allow us to name a Deputy Administrator who would serve as the 
chief NextGen officer, continuing the important day-to-day 
oversight of NextGen.
    We are already seeing real improvements today from NextGen 
technology. Satellite-based surveillance in the Gulf of Mexico, 
for example, gives more precise images of the airspace where 
there is no radar coverage. We worked in collaboration with the 
oil and gas industry to place radio transceivers on the oil 
rigs in the gulf. And the largest helicopter company operating 
in the gulf has equipped its aircraft.
    The technology gives pilots much better weather information 
at lower altitudes, where they operate, which enhances safety. 
It allows us to increase the number of aircraft flying in the 
gulf during low visibility conditions, because we know exactly 
where each aircraft is located. Equipped helicopters in the 
gulf save up to 10 minutes and 100 pounds per fuel per flight 
because of the greater efficiency, and they do that in greater 
safety. That is just one example.
    The FAA has also partnered with JetBlue to equip some of 
its aircraft to take advantage of more direct NextGen routes 
from Boston and New York down to Florida and the Caribbean. 
These routes are like HOV lanes that bypass the congestion.
    You may have noticed that these examples share something in 
common. They reflect our commitment to creating public-private 
partnerships. The Department cannot implement NextGen alone. We 
are collaborating with industry to discuss the best way to go 
about this major transformation of our air traffic control 
system, and what actions we need to take first to produce the 
best results. We are working hand in hand with all of our 
aviation stakeholders. This communication is critical because 
it helps us align our work with what will produce the best 
results for the traveling public now.
    As this committee well knows, civil aviation is vital to 
our economy. It contributes 10 million jobs and $1.3 trillion 
annually to our Nation's economy. NextGen will help make sure 
these contributions continue for years to come.
    I will stop here and allow Michael to give you more 
details. Thank you for your support of America's aviation 
system, and for keeping this economic engine running at full 
throttle.
    Mr. Petri. Administrator Huerta, go ahead.
    Mr. Huerta. Thank you very much. Good morning, Chairman 
Mica, Chairman Petri, Ranking Member Costello, and members of 
the subcommittee.
    As you just heard from Deputy Secretary Porcari, NextGen is 
happening now. It is not something we are doing alone. It is a 
public-private partnership that will enhance the safety of our 
aviation system, and lay the groundwork for the United States 
to continue to operate the safest aviation system in the world.
    I have made it a priority to step up our collaboration with 
our stakeholders externally to increase the focus on NextGen, 
and to bring benefits to the traveling public now. The FAA has 
a long history of engaging with industry to develop consensus 
around policy, programs, and regulatory decisions. We have 
worked closely with our industry partners such as RTCA, and 
have incorporated important advice from that organization in 
our NextGen planning.
    We have also established a broad-based panel, the NextGen 
Avisory Committee, to provide guidance and recommendations on 
how to equip for NextGen, and how to measure our success. We 
value the advice of the Joint Planning and Development Office, 
which handles interagency coordination and long-term planning 
for NextGen. And we work with the experts at the Institute 
Management Council, which oversees the NextGen Institute. As 
always, we work with airlines that are enthusiastic about our 
pilot programs, and help us to gain valuable NextGen data.
    Let me share a few examples of our partnerships for NextGen 
and the progress that we are making around the country. In 
Seattle, Washington, as part of the Greener Skies initiative, 
we are partnering with Alaska Airlines, the Port of Seattle, 
and the Boeing Company. We have created new NextGen approaches 
for airlines flying into Seattle-Tacoma International Airport. 
These flight tracks are shorter. They are more fuel-efficient, 
and more environmentally friendly. That is a lot of hard work 
by all of our partners.
    And, thanks to that, we reached a milestone this summer. 
For the first time, Alaska Airlines is flying customers into 
Sea-Tac using these new NextGen approaches. In fact, these 
procedures will help all equipped airlines flying into Sea-Tac 
to significantly cut total fuel consumption annually, reduce 
carbon emissions, and deliver other important benefits.
    And in addition to our partnerships, we have also taken 
steps to change the way we do business and improve the 
efficiency of our internal workflow. The results are apparent 
in our work, tackling the problem of congested airspace over 
busy metropolitan areas around the country.
    The old way of doing businesses was to improve air traffic 
procedures at one airport, separate from all the others. But we 
are now taking a different approach. We are looking at metro 
areas as a whole, and bringing all the stakeholders to the 
table: airports, airlines, our air traffic controllers, and 
Federal agencies. We are working together to improve air 
traffic flow around all the airports in a metroplex. We are 
creating new and more direct routes that will relieve 
congestion and improve safety and efficiency.
    By changing the way we approach the problem, we are 
improving our airspace in 3 years. And under the old way of 
doing business, these changes would have taken 5 to 10 years. 
We are seeing great progress in Houston, Atlanta, Charlotte, 
California, north Texas, and right here in Metropolitan 
Washington, DC. And more regions will follow.
    We have learned lessons from the past regarding our large 
acquisition programs, and we have developed best practices, 
moving forward. We have elevated and strengthened our NextGen 
organization, and we have created a new program management 
organization specifically focused on implementing major 
technology programs, such as ERAM, which is our En Route 
Automation Modernization program. This will strengthen and 
improve the coordination among NextGen initiatives, ushering 
them from the drawing board to live operation.
    This new approach, as well as our improved working 
relationship with our unions, is already showing results. ERAM 
already is operating at nine en route centers around the 
country. We plan to use it at a total of 20 centers. And now, 
five centers are using ERAM as the primary technology to direct 
air traffic. This sets the stage for taking advantage of more 
NextGen capabilities throughout the air traffic control system.
    This is truly an exciting time in aviation history. NextGen 
is fundamental to ensuring that we continue to operate the 
world's safest air transportation system for many years to 
come. It will allow us to deliver more on-time and more fuel-
efficient flights. It is a better way of doing business for the 
FAA, the airlines, the airports, and the traveling public.
    Thank you very much for the opportunity to appear before 
you today. This concludes my testimony, and I am happy to take 
any questions you might have.
    Mr. Petri. Thank you.
    General Scovel?
    Mr. Scovel. Chairman Mica, Chairman Petri, Ranking Member 
Costello, members of the subcommittee, thank you for inviting 
me to testify on FAA's progress in developing NextGen. Since 
FAA launched this complex program almost 9 years ago, we have 
reported on cost and schedule risks, as well as challenges that 
FAA must address to deliver NextGen benefits.
    FAA has been responsive to our recommendations, and has 
taken important steps toward moving NextGen forward, such as 
establishing a new program management office. However, 
transitioning from planning to benefits delivered continues to 
challenge the agency. Today I will focus on three key 
challenges FAA faces.
    The first challenges concerns FAA's Metroplex initiative, 
an effort to improve the flow of air traffic in major 
metropolitan areas and reduce delays. FAA has made important 
progress by aligning budgets and plans, completing airspace and 
procedure studies, and performing design work at several 
locations. Despite this progress, the expected completion date 
is September 2017, 15 months later than initial plans.
    Industry representatives are concerned that Metroplex may 
not deliver all desired benefits, nor adequately integrate 
other critical capabilities. Of particular concern are delays 
in implementing DataComm, a capability industry considers key 
to more precisely manage aircraft for improved fuel consumption 
and operating costs. Additionally, FAA's Metroplex effort faces 
barriers such as working across diverse agency offices, 
improving implementation of new flight procedures, and training 
of controllers on advance capabilities.
    The second challenge relates to the deployment of ERAM, 
FAA's flight data processing program for high-altitude 
operations. FAA has installed ERAM at nine sites, a significant 
step forward, since testing at the two initial sites revealed 
many software problems associated with safely managing 
aircraft. FAA's progress is largely due to senior leadership's 
sustained commitment to resolve problems and improve risk 
management. Still, controllers, technicians, and users familiar 
with ERAM have reported an excess of 900 new high-priority 
software issues, delaying ERAM's nationwide deployment, and 
resulting in hundreds of millions of dollars in increased 
costs.
    Problems with ERAM exposed fundamental weaknesses in 
program management and contract oversight. For example, ERAM's 
cost incentive fee did not motivate the contractor to stay 
below cost targets, because FAA simply increased the targets as 
requirements grew. Consequently, FAA paid the contractor $150 
million in incentives, even though ERAM costs exceeded the 
budget by at least $330 million.
    In response to our findings, FAA modified the ERAM contract 
to better align incentives to performance targets. FAA is also 
taking steps to address other programmatic and contract 
management issues we have identified, including modifying its 
contract to better track costs. However, unresolved technical 
and programmatic problems with ERAM continue to affect the cost 
and schedule of NextGen.
    The third challenge relates to the development of NextGen's 
six transformational programs, which FAA expects will cost $2.4 
billion over the next 5 years. Three programs in particular, 
ADS-B, SWIM, and DataComm, will provide critical technologies 
for NextGen, and allow for efficient data sharing among 
airspace users and better management of air traffic. To date, 
FAA has yet to develop total cost, schedule, and performance 
baselines for the six programs.
    For example, to realize ADS-B's full range of benefits, FAA 
must finalize requirements for displaying traffic information 
in the cockpit. It must also modify the systems that 
controllers rely on to manage traffic, reduce radio frequency 
congestion, implement procedures for separating aircraft, and 
assess security vulnerabilities.
    FAA also lacks an integrated master schedule to mitigate 
operational, technical, and programmatic risks. Dividing larger 
programs into smaller, more manageable segments, as FAA has 
done for ADS-B, SWIM, and DataComm can reduce some risks. 
However, as requirements continue to evolve, programs are left 
with no clear end state, and decisionmakers lack sufficient 
information to assess progress. Also, delays with one program 
can significantly slow another, since the programs have complex 
interdependencies with each other and with other FAA systems. 
FAA is now developing an integrated schedule. But to fully 
populate it, the agency must identify required data such as key 
system dependencies.
    FAA's recent actions to reorganize its NextGen efforts 
demonstrate its commitment to improve the management of NextGen 
and its major acquisitions. These efforts are in the early 
stages, and will focus on improving airspace efficiency at 
congested airports, resolving problems with ERAM, and 
addressing uncertainties in NextGen's transformational 
programs. These challenges are significant, and we will 
continue to monitor the results of FAA's organizational 
changes.
    Mr. Chairman, this concludes my statement. I will be happy 
to answer any questions you or other members of the committee 
may have.
    Mr. Petri. Thank you.
    Dr. Dillingham.
    Dr. Dillingham. Thank you, Mr. Chairman, Ranking Member 
Costello, Chairman Mica, Mr. Duncan, and other members of the 
subcommittee. GAO has been monitoring the transition to NextGen 
for this subcommittee since planning for the initiative began 
in 2003. We have made numerous recommendations to FAA to 
address delays in NextGen's development and acquisitions, 
improve business processes, and focus on accountability and 
performance.
    Over the last 2 years, FAA has taken several steps, 
instituted many changes, and implemented several of our 
recommendations to address these issues. While initial planning 
focused on having NextGen in place by 2025, more recently FAA 
has emphasized improvements that can be implemented through the 
mid-term, which the agency now defines as through 2020.
    Our work indicates that FAA views this emphasis as a means 
to respond to industry skepticism about its ability to 
implement NextGen, to build support for long-term NextGen 
investments, and to more quickly address existing 
inefficiencies and delays in the national airspace system. 
Overall, FAA is making progress in implementing NextGen. 
However, our work also shows that stakeholders are concerned 
about the pace of implementation and, in some cases, about the 
extent to which the full benefits of NextGen will be realized.
    My written statement highlights five challenges, in 
addition to what the DOT IG just explained, with regard to 
implementing the NextGen, and the actions FAA has taken to 
address these challenges.
    The five challenge areas that we include: one, delivering 
and demonstrating NextGen's near-term benefits for 
stakeholders; two, encouraging operators to equip with NextGen 
technologies; three, keeping key systems acquisitions on budget 
and on schedule; four, clearly defining the NextGen leadership 
roles and responsibilities for both internal and external 
stakeholders; and finally, balancing the priorities of the 
current air traffic control system through the transition to 
NextGen.
    In light of the Federal budget environment, this balancing 
is particularly important to ensuring NextGen's implementation 
stays on course, while also sustaining the current air traffic 
system, a system that will be core of the national airspace 
system for several years to come.
    Mr. Chairman, Ranking Member Costello, and members of the 
subcommittee, while NextGen is certainly critical to 
modernizing the current system, increased efficiencies from 
NextGen improvements alone may not be sufficient to meet 
projected increases in demand for aviation system capacity. 
FAA's modeling indicates that even if all NextGen technologies 
are implemented, some of the 35 busiest airports in the Nation 
may not be able to handle the forecasted increase in air 
traffic. If these projections are accurate, additional 
capacity, including the construction of additional runways, 
taxiways, and terminal gates will also be needed. Making 
infrastructure improvements can be a very costly and lengthy 
process, requiring substantial planning and analysis before 
they can be implemented.
    Thank you, Mr. Chairman. This concludes my prepared 
statement.
    Mr. Petri. Thank you. Thank you all for your statements. 
And I would like to begin questioning by asking Mr. Porcari or 
Mr. Huerta if you have any comments or reactions to the--
General Scovel or Mr. Dillingham's statements that were made.
    Mr. Porcari. Thank you, Mr. Chairman. In both cases, the 
reports have been very helpful in helping us structure steps 
forward. We appreciate the fact that they recognize the steps 
that have been taken on NextGen implementation. This is a 
system of systems, so it is very complex in its implementation. 
But in every case, we have tried to increase the collaboration 
with industry, with our partners across the industry spectrum 
to actually get this technology out there, and get these 
procedures out there and usable as quickly as possible.
    We do recognize this is a U.S. technological leadership 
issue that is very important.
    Mr. Huerta. Just to add to that, Mr. Chairman, as the 
Deputy Secretary said, we have had a lot of discussions with 
the IG and with GAO on the oversight and management of the 
program. But I think one thing that I want to stress is the 
management changes that we have made, and the focus on near-
term benefit has been just that. It has been what can we do to 
ensure that, as we make investments, and as our industry 
partners make investments, and as we collaborate with the 
workforce that makes all this happen, how do we ensure that, as 
we make these investments, we are matching benefits so that the 
users of the system are seeing benefits as these investments 
move forward.
    That is extremely important, and that is what our 
initiatives such as Metroplex are all about. How do we make 
sure that users are actually getting benefits now, in things 
like fuel burn, reduced emissions, reduced cost? And this 
benefits not only the air carriers, but also the general 
aviation community, the business aviation community. Everyone 
benefits from greater efficiency of the use of the national 
airspace system.
    We want to assure that our system continues to be the 
safest in the world, and also the most efficient in the world.
    Mr. Petri. Well, I know it is a complicated process, and 
you have to sort of break it down into pieces, and it involves 
redoing training manuals and procedures and airlines retraining 
personnel, and all the rest of it, and coordinating into 
actually get things done. And trying to coordinate that with 
investments and new equipment schedules is a perilous process 
sometimes.
    But Mr. Porcari, you have mentioned several times, and we 
have known the United States has, we think, generally led the 
world in aviation since the Wright Brothers. And it has been a 
great asset for the United States, and I think a benefit for 
the world. Can you discuss some of the implications of what we 
call NextGen for that leadership, and why it makes a difference 
beyond, you know, cheering for the good old USA?
    Mr. Porcari. Certainly, Mr. Chairman. I appreciate the 
question. As you point out, the U.S. has led the world in 
aviation since the Wright Brothers. NextGen, in particular, 
because it really is the future of aviation in many ways, is a 
great opportunity.
    While we are collaborating, for example, with the European 
Union on technological standards for SESAR, their equivalent of 
this, that has been primarily a planning exercise to date. What 
we have really focused on, and what Acting Administrator Huerta 
and the NextGen implementation team have really worked on, is 
operational benefits now. And we have done that in a way that 
has been a collaboration with industry.
    As Michael pointed out, we have worked hard to bring our 
workforce into this, something that was not done in the 
beginning of this program. I think we all understand we would 
have benefitted from greater collaboration. But we see this 
today and into the future as an opportunity for the United 
States, worldwide.
    I mentioned before the $1.3 trillion per year economic 
impact of the overall industry, both from an export perspective 
and certainly for future domestic growth. It is something that 
we see as a core part of our mission. Transportation is also 
economic development. This is one of the ways that we make the 
foundational investments for a better future in America. 
NextGen, as one of the largest infrastructure investments that 
we are making as a Nation, is one of our primary tools for 
doing that.
    Mr. Petri. Mr. Costello?
    Mr. Costello. Mr. Chairman, thank you. Dr. Dillingham, when 
you concluded your testimony you made the statement that 
NextGen may not be able to handle traffic at the busiest 
airports in the United States. I wonder if you might elaborate 
on that and, one, why you believe that, and, number two, what 
needs to be done to address that issue.
    Dr. Dillingham. Yes, sir. I was referring to the fact that, 
based on FAA's forecast of traffic and the current airport 
capacity, we are still going to have congestion at those 
airports. The technology of NextGen will help us move planes 
from place to place and, in some ways, also help manage traffic 
on the ground.
    But if the forecasts come true, we are clearly going to 
need additional runways and taxiways in order to accommodate 
that demand. Otherwise, we are going to see the levels of 
congestion that generated the need for a NextGen.
    Mr. Costello. So it is a funding issue. In order to make 
those improvements, you are dealing with the passenger facility 
charge and the airport improvement program. Is that correct?
    Dr. Dillingham. Clearly, it is a funding issue. But it is 
also a planning issue. I think one of the big obstacles to 
infrastructure construction oftentimes, is not bringing in all 
of the stakeholders early on; particularly the communities, 
with regard to environmental issues, noise, and emissions. So 
it is money, as well as stakeholder involvement and some of the 
other issues.
    Mr. Costello. I know that you are aware that in the bill 
that the House passed in 2007 and again in 2009, we attempted 
to--in fact we did, in that bill--increase the passenger 
facility charge. In other words, take the cap off at $4.50 and 
take it up to $7, and increase the AIP fund, where, in fact, 
the law that--the bill that was passed and the President signed 
into law, of course, keeps the cap on the PFC fund at $4.50 and 
actually reduces funding for the AIP program. So that is a 
challenge that we are going to have to deal with in the future.
    Let me move on to the next question. You have talked about 
progress has been made on planning and implementation of 
NextGen. Give some concrete examples as to the progress that 
has been made in the planning and implementation.
    Dr. Dillingham. Yes, sir. I will start with what has been 
mentioned a couple of times this morning. That is back when FAA 
contracted with RTCA to bring all the stakeholders together in 
one room. That was one of the seminal events where everybody 
came together and agreed on how to move forward, which was a 
unique situation. From that, FAA has, as mentioned earlier, 
identified and prioritized metroplexes to start on integrated 
implementation of NextGen.
    We have seen demonstrations at various airports around the 
country with savings in fuel and lessening of emissions. Those 
kinds of things, from our perspective, build credibility for 
FAA, in terms of the airlines' willingness to put forth the 
money to equip, or at least stay in the game until these 
benefits can be seen and, therefore, they are more likely to 
equip moving forward.
    We have recently seen a reorganization in FAA for more 
accountability and oversight which also came out of the bill. 
The reorganization is new at this point, so we don't know how 
it will play out. We have seen reorganizations before that 
didn't yield all the things we thought it would. But I think 
those are some examples of what we mean when we say progress is 
being made, although not as fast as any of us might have wanted 
or expected. But as has been said this morning, it is very 
complex, and one of the biggest things the U.S. is doing at 
this point in time.
    Mr. Costello. In addition to monitoring the implementation 
of NextGen here in the United States, this subcommittee has 
asked you to monitor what they are doing in Europe, as well, as 
far as progress that is being made to improve their air traffic 
control system. I wonder if you might give us an update as to 
where Europe is, versus the United States.
    Dr. Dillingham. Yes, sir. I think Chairman Mica probably 
captured it when he said we are ahead, but just by a little 
bit. There is a lot of cooperation, and some competition, 
between the U.S. and Europe. I think what is important is that 
this effort could go off track at any point in time. If we fall 
behind in implementing NextGen, and they keep moving ahead, we 
could, in fact, find ourselves in a different position.
    On the other side, they have to deal with multiple nation 
states to get permission to do the kinds of things that we do 
here, since we have one system. At this time, in small measure, 
the U.S. is in the lead.
    Mr. Costello. Final question--Chairman, you have been 
generous with my time--Secretary Porcari, it wasn't too long 
ago that we had David Grizzle, who heads up, of course, the 
ATC--or ATO organization at the FAA. And I asked about 2 months 
ago, when he testified before the subcommittee, I asked him how 
sequestration would affect the FAA. And he said that he would 
get back with us, that there were no specific hard numbers.
    So you have had plenty of time, and hopefully your agency 
is planning both for--if sequestration happens or if it doesn't 
happen. And I think it is in the interest of everyone here--
people, regardless if they support sequestration or they are 
opposed to it, they should know what is going to happen. So, 
what will happen if sequestration, in fact, goes forward? What 
happens to the FAA, as far as funding is concerned? And 
specifically, what happens to progress that has been made with 
NextGen?
    Mr. Porcari. Under sequestration we would face some very 
drastic service cuts, which is why we would all urge Congress 
to act quickly to avert those sweeping cuts.
    Mr. Costello. Mr. Secretary, we heard that from David 
Grizzle. What I am asking you specifically is to give me some 
figures. You obviously know. You have had to plan for 
sequestration. So, if sequestration goes forward, is it $1 
billion out of the FAA budget? And, if so, one, what is the 
figure, and how will it affect, dollar-wise, NextGen?
    Mr. Porcari. If I can start with the impact part of it, 
first, our primary objective would be to make sure it does not 
impact safety. Safety activities excepted, we know it will have 
impacts on air traffic control services, NextGen 
implementation, which will be slowed down, and aircraft 
certification for manufacturers, among other activities.
    The cuts are estimated by the Congressional Budget Office 
at 7.8 percent for the nondefense agencies. What I would 
emphasize there is that if this happens in January, we are 
already a quarter of the way through the fiscal year. So the 
impact would be greater, because it is not spread over an 
entire fiscal year, three-quarters of one, instead.
    We are working closely with the Office of Management and 
Budget through their guidance on specific impacts. I know that 
OMB has indicated that later this week, most likely, there will 
be a report to Congress with more specifics.
    Mr. Costello. You are aware that the Aerospace Industries 
Association took a look at one of two possible scenarios under 
sequestration, and they said that full NextGen implementation 
could be delayed until 2035 or beyond, resulting in 1.3 million 
job losses and annual reductions in economic activity growing 
from $40 billion in 2020 to $80 billion in 2035. You have any 
reason to doubt those figures released by AIA.
    Mr. Porcari. We have seen the Aerospace Industry 
Association figures. They are based on very specific 
assumptions, as are some of the other studies that are out 
there on potential sequestration impacts. Depending on what 
assumptions you make, those will obviously drive the 
conclusions on the impact of service.
    We appreciate the work they have done, but we don't have 
any specific comment on that or other studies, because they are 
all based on individual assumptions which may or may not play 
out under a sequestration scenario.
    Mr. Costello. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. Chairman Mica.
    Mr. Mica. OK. Inspector General and Mr. Dillingham, you 
both did some reviews here. What period of time did you cover 
in your review, Inspector General?
    Mr. Scovel. Chairman Mica, we have covered the last several 
years, both with regard to ERAM----
    Mr. Mica. OK. Would--but did you include the post-period 
after February 14th, when we signed the new legislation, or is 
most of this before that?
    Mr. Scovel. Much of it is before that, sir. We do have 
updates with regard to specific programs and FAA initiatives 
post-February.
    Mr. Mica. Mr. Dillingham?
    Dr. Dillingham. Yes, Mr. Chairman. Most of our work 
preceded the February 14th date, but we also updated the work 
where we could in the time allowed.
    Mr. Mica. The reason I ask is we put some pretty specific 
parameters in law, again trying to deal with some of the 
problems that had been disclosed before in management 
oversight, milestones, leadership.
    Secretary Porcari--well, we have got an Acting 
Administrator. If I was going to say somebody in charge is 
supposed to be--I guess the Deputy, is that Mr.--is that right, 
Mr. Huerta, of a Deputy Administrator?
    Mr. Porcari. Yes. The Deputy Administrator position----
    Mr. Mica. Right.
    Mr. Porcari [continuing]. Is the chief NextGen----
    Mr. Mica. Right.
    Mr. Porcari [continuing]. Officer. So----
    Mr. Mica. But Huerta is acting, and then the deputy is 
acting, right?
    Mr. Porcari. Michael is a two-hatter at this point. He is 
Acting Administrator. Until confirmed, if he is confirmed as 
Administrator, we cannot fill the Deputy position. So he has 
two day jobs right now.
    Mr. Mica. But basically, then, if I have to look at 
somebody and say who is in charge under the new law, then we 
have to say the Acting Administrator.
    And are you lacking anything in direction from the law, or 
you see some difficulty in implementation? Or--I mean we passed 
that 6 months ago. Is there something missing? Do you have the 
tools to do the job? And is the guideline specific enough that 
we provided?
    Mr. Huerta. Mr. Chairman, we very much appreciate the 
support and guidance that has been provided by the committee. 
And as----
    Mr. Mica. No, but the law.
    Mr. Huerta. I will come back to exactly what we are doing.
    The law provides for us to establish roles and functions 
within the NextGen organization, which we have done, and the 
Joint Planning and Development Office, which we have done.
    Mr. Mica. Right.
    Mr. Huerta. Both of those organizations report to the chief 
NextGen officer. Our concept----
    Mr. Mica. But that is you.
    Mr. Huerta. Which is me.
    Mr. Mica. OK. Have you delegated that?
    Mr. Huerta. I have delegated the role of chief NextGen 
officer, on an interim basis, to Vicki Cox, who is the head of 
our NextGen organization. But I stay very personally involved 
in it.
    Mr. Mica. And that is adequate? You are able to now 
identify who is in charge and move forward, and you don't see--
what I am--I want to know if what we did is adequate. Do you 
have the legislative tools and direction? Yes? No?
    Mr. Huerta. Yes, that is correct, I would love to have a 
deputy.
    Mr. Mica. OK. Well, that I can't change. But again, we have 
got to make certain.
    Now, the other thing, too, is we took the head of the JPDO 
and we raised it to an--raised it to, what, Associate 
Administrator position. Has that been done?
    Mr. Huerta. It hasn't been done----
    Mr. Mica. Why not, Porcari?
    Mr. Porcari. First, going back to Michael's comment, there 
is a chain of command issue here. Having an Administrator----
    Mr. Mica. I know, but one of the things we directed in law 
was to elevate that position. We have--OK, we give you 
February, March, April, May, June, July, August. We are into 
September. When will we see that position elevated and filled?
    Mr. Porcari. The filling of the position is not in any way 
holding up NextGen implementation, Mr. Chairman.
    Mr. Mica. No, but what I want--you know, I just come from a 
business background. I don't have a lot of experience, no 
Harvard Ph.D. in business or anything, but you got to have 
somebody in charge. That is what we identified as part of the 
problem, OK? So I want identifiable people in place, the 
positions, and what the law provided for, and then people doing 
their jobs getting this in order.
    Now, they said it wasn't--we said it wasn't money, but some 
said it may be money. OK. Now who is in charge for a 3\1/2\ 
to--well, almost a half-a-billion dollar overrun in the ERAM, 
and a 3--the ERAM, isn't that the--one of the key components to 
the whole program, guys? Yes? Yes?
    Mr. Porcari. It is.
    Mr. Mica. OK.
    Mr. Porcari. It is a foundational technology----
    Mr. Mica. It is 3\1/2\ to 4 years late. Now that is post. 
And it is--I have $330 million to half-a-billion dollars in 
overruns. Did you pinpoint responsibility for that, gentlemen? 
Mr. IG? It is not a small amount, and it is not a small 
component to getting this whole thing in place.
    Mr. Scovel. It is not a small amount. And you are 
absolutely right, Chairman Mica. The problems with ERAM began 
with the design of the contract, and persisted all the way 
through development and implementation.
    Mr. Mica. Which was developed by FAA----
    Mr. Scovel. By FAA. Yes, sir.
    Mr. Mica [continuing]. And implemented by the contractor in 
changes, et cetera.
    Mr. Scovel. Right.
    Mr. Mica. Now, somehow, whoever is in charge and the people 
that are in charge, we have got to make some progress, and keep 
the cost under control. If you work for me and you had a $330 
million or a half-a-billion dollar cost overrun and a 4--I give 
you a 3- to 4-year delay, your butt would be fired. OK? So that 
is not acceptable.
    And what we have got to do, we learn from the past. We have 
got to have--I have got to have the pattern that we set in 
place by law executed, and then we have got to have somebody in 
charge and managing the contract and getting it implemented. Is 
that the identifiable problem, Mr. Scovel, Mr. Dillingham?
    Mr. Scovel. That is it.
    Dr. Dillingham. Yes, sir.
    Mr. Mica. OK. OK. Mr. Dillingham, don't want to put any 
words in your mouth.
    Two quick things before I go--I won't be gone permanently, 
unfortunately.
    [Laughter.]
    Mr. Mica. Talked to manufacturers. Now, we need to move 
some people around somewhere in FAA on certification for 
manufacturing of equipment. Some regions, it appears, or 
offices, they can get it done faster. Others are sitting on it. 
We are losing a competitive advantage in manufacturing and 
opportunities for putting people to work and capturing markets.
    The longer that delays--now, don't tell me it is a 
personnel problem, because the personnel are out there, and 
some can do it. If we have to move people around, somebody has 
got to have a plan. Come back to the committee with a plan so 
that manufacturing certification can be accomplished, and that 
we--and I know there are positions that can be moved around or 
personnel that can be made available to accomplish those goals. 
Or, at least some standardization in the process, so one place 
has some ding dong requirements and keeping things at bay. Can 
you do that for us, Mr. Huerta?
    And then, one of the other things, I want you to come back. 
We had talked before about working conditions for air traffic 
controllers, which is a concern. Some of them are working in 
dumps. And some of them are working in conditions that are not 
conducive to doing a good job or being on the job alert, awake, 
and all of that. And we had started talking about this with 
your predecessor, and now I want to see a plan to start 
implementing it.
    So, they are our key, because this air traffic control 
system of Next Generation won't be around for a little while, 
so we have to rely on the men and women that are actually doing 
the job, and making certain they are capable of doing the job, 
working in an atmosphere that is conducive to accomplishing 
that simple goal. So, can you get back to us on that?
    Mr. Huerta. Certainly.
    Mr. Mica. All right. Thank you. I yield back.
    Mr. Petri. Mr. DeFazio.
    Mr. DeFazio. Thanks, Mr. Chairman. Mr. Chairman, just a 
general note before I begin specific questions, but I would 
note that there were two iterations of an FAA reauthorization: 
one that was written on our side of the aisle, which would have 
increased AIP and would have allowed an increase in PFCs, which 
would have dealt with some of the issues that Dr. Dillingham is 
talking about here and some of the issues just raised by the 
chairman in terms of staffing and these programs. And, of 
course, AIP was cut and PFC was capped in the legislation that 
ultimately passed. So we have created some problems there. I 
don't think the resources are adequate, but let me go to some 
other issues.
    Dr. Dillingham, is there going to be a guarantee of 
interoperability between whatever it is the EEU is doing and 
whatever it is we are doing? I have sat in hearings for 26 
years on NextGen. I still don't know what it is, what it is 
going to cost, when or how we are going to deploy it, but is 
whatever it is we are going to do going to be compatible with 
whatever it is they are going to do?
    Dr. Dillingham. Mr. DeFazio, that's the plan. That's the 
activity and action that's taken place to make sure that it is, 
in fact, going to be interoperable. Because, as you know, 
aviation is a global undertaking at this point in time. And FAA 
is working very cooperatively and collaboratively with SESAR to 
make sure that it happens.
    Mr. DeFazio. OK. So say they aren't a bit dismayed at some 
of the problems we're having, like with the ERAM or that? I 
mean how does that--you know?
    Dr. Dillingham. I am sure they are dismayed, but they have 
problems of their own as well, Mr. DeFazio. They aren't at the 
same place we are with regard to actually implementing some of 
the technology. They're still planning and designing those 
kinds of things. But, again, they have a very complex system 
and there's a lot of cooperation going on. So I think from our 
work, they understand the situation that occurs. Also, you 
think you can do something quicker than you can do it, 
particularly when it involves new technology, new procedures, 
and all of the other things that are associated with such a 
major project.
    Mr. DeFazio. Right. But I have got to reflect that I think 
it's outrageous that the contractor is still getting cost 
incentives when they are at 100 percent over budget and 4 years 
behind schedule. How do we explain that? Who would like to 
explain that? Why are they still getting cost incentives? They 
should be getting a whack on the top of the head.
    Mr. Rinaldi. Mr. DeFazio, we have restructured the 
contract.
    Mr. DeFazio. Restructured in causing them some pain?
    Mr. Rinaldi. I think that we have got their attention and 
they are very focused in working with us. And, as I mentioned, 
we do have ERAM at a point now where I am feeling that we are 
well on our way toward final deployment there.
    Mr. DeFazio. What's the 900 urgent software glitches 
identified by air traffic controllers and others that are kind 
of problematic? Where we have got the plane with the wrong 
route and wrong number? And we don't really know who it is 
where?
    Mr. Rinaldi. It is certainly not of that magnitude. ERAM is 
actually our primary technology that is in use at two of our 
air traffic control centers; well, actually at five in 
continuous operations where we have decommissioned the system 
at two of those with a plan to get it out to all 20.
    Mr. DeFazio. And these urgent software fixes do not apply 
to those fully operational airports?
    Mr. Rinaldi. In any operational system deployment you have 
software issues and the important thing to focus on is their 
relative priority and how quickly you can get those resolved. 
We do that collaboratively with the workforce.
    Mr. DeFazio. OK. Well, we will hear from a practitioner 
from the workforce later; and, if you will, they think it is 
more serious. I just said this is, you know, 26 years. It has 
been a long haul. I have been on this committee 26 years and I 
have seen many reports from Mr. Scovel and Dr. Dillingham about 
NextGen, but even before that, you know. We began these 
discussions my first term in Congress. And I guess this leads 
me, Mr. Porcari, to a question I opposed previously, and this 
is not directed personally of you. But, why is it that the only 
agency of the Government of the United States of America than 
is worse than acquisitions than the Pentagon, who's famous for 
massive waste and cost overruns, is the FAA? I mean what is 
wrong with your procurement process, and how are we going to 
fix it?
    Mr. Porcari. As you have heard, Mr. DeFazio, in retrospect, 
the ERAM contract would have been and should have been 
structured differently. I will tell you that we got the 
contractor's attention at the CEO level to get the changes that 
we needed done quickly. The profile of the kind of work that 
the FAA does is very high-risk, sometimes at the technological 
leading edge, sometimes the bleeding edge. It is that kind of 
project, more likely--especially when it's as complex as 
NextGen is--to have setbacks and delays.
    When you take the six, separate, foundational technologies 
that constitute NextGen in the interplay and interaction 
between them, it gets an order of magnitude more complex. That 
is not an excuse, but what it puts a premium on is better 
project management skills and understanding the risks from the 
beginning, and we're very much focused on that.
    Mr. DeFazio. OK. Thank you.
    Mr. Chairman, just one other quick question. I read 
something yesterday about potentially using the iridium system 
for the data management and maybe being able to move along more 
quickly by contracting with them. Is that something under 
active discussion?
    Mr. Huerta. Mr. DeFazio, it is under active discussion. At 
this point, what we're trying to get is a better understanding 
of the relative cost of investing in the iridium. Iridium is a 
space-based ADS-B technology which would supplement investments 
that are already being made in ground-based ADS-B. We want to 
ensure, before we make any decision with respect to funding or 
contracting, that there is a valid benefit case to be made, 
that this technology provides us something that we wouldn't 
otherwise get and that it merits the investment that would be 
required. But we are looking at it.
    Mr. DeFazio. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Petri. Thank you. And, Mr. Ribble?
    Mr. Ribble. Well, thank you, Mr. Chairman. And, Mr. 
Chairman, I have some information regarding ADS-B that I would 
like to submit for the hearing record, and ask unanimous 
consent to do so.
    Mr. Petri. Without objection.
    Mr. Ribble. Yeah. Thank you. Well, I appreciated my friend 
Mr. DeFazio's questioning. I've only been here 2 years, and 
I've got to tell you I'm struck by the whole NextGen--I want to 
call it debacle, but maybe it's not a debacle, but it feels 
like it when I listen to your comments. And I guess I'll start 
with Dr. Dillingham. In your opinion, has the FAA ever suffered 
from lack of funding for NextGen? Because I'm beginning to 
sense it's not NextGen. It's NextNextGen, or NextNextNextGen by 
the time we get this done.
    Dr. Dillingham. We have not seen any evidence where a lack 
of funding has been a major contributing factor to the issues 
that we've seen with regard to NextGen. Similarly, we have not 
seen a situation where the availability of technology, 
specifically, has been a major contributing factor.
    Mr. Ribble. OK. Do you believe that there are stakeholders 
that aren't committed to NextGen?
    Dr. Dillingham. Our work shows that stakeholders are 
guardedly optimistic of NextGen's progress. Stakeholders that 
we talked to would like to see some evidence of benefits. 
They'd like to see a small victory with regard to NextGen 
implementation to build their confidence in FAA's ability to 
come through with the larger investment. The airlines can take 
that business case showing the return on investment to their 
management. At this point, stakeholders are guardedly 
optimistic, as best I can tell. Stakeholders have been in the 
same room, and have said if FAA does these things, if FAA 
provides these near-term benefits, then stakeholders will be on 
board.
    Mr. Ribble. Gen. Scovel, do you agree with that assessment 
on stakeholders? The fact is I hear a lot of cynicism from 
stakeholders. They don't think it is going to get done.
    Mr. Scovel. There is a lot of concern, Mr. Ribble. FAA's 
effort to advance the Metroplex project is key to this because 
as a result of the RTCA task force recommendations, FAA moved 
out to try to drop portfolios of initiatives on specific 
locations. A key problem with many of the users is FAA's 
misplaced focus, as they would characterize it, on a certain 
type of instrument flight procedure improvement that provides 
very limited benefit. Some are equipped to take advantage of 
more advanced procedures.
    Others are not, and that's the specific rub. As you'll 
probably hear from the next panel, some users are very much 
cheerleaders for FAA to move ahead as quickly as possible with 
advanced procedures to embed those and train the air traffic 
controllers. Others, who haven't yet made the investment, may 
candidly tell you that they're kind of happy with the status 
quo. So it's somewhat of a mixed bag. Conceptually, they are 
all in favor of NextGen, big picture; but, where are we today? 
What's the return on investment? How much money have we already 
put into systems aboard aircraft? That's a different kind of 
picture.
    Mr. Ribble. Yeah. Secretary Porcari--and I am just curious. 
I think it was back in 1961 when President Kennedy challenged 
NASA, prior to manned space flight, to have someone on the Moon 
within the next decade. And they were able to accomplish what 
seems to me, looking at it through a historical prism, an 
extraordinary feat within 9 years. Was this harder than that?
    Mr. Porcari. This is not harder than that. That was 
certainly an extraordinary feat, and as you're a student of 
that, I'm sure you know that there were numerous setbacks along 
the way. There was concurrent development of numerous 
technologies that ultimately had to work together in 
synchronicity. It didn't happen without setbacks.
    We can certainly, as Americans, accomplish anything we put 
our minds to. We view NextGen as one of the most important 
infrastructure investments that we need to make as a Nation, 
and, as you have heard before, as an element of U.S. 
technological leadership nationwide. So we take it very 
seriously. We appreciate the support that Congress has shown 
for NextGen. We are starting to see, and it's easier on the 
inside, sometimes, to see the progress that is being made in 
operationally deploying usable parts of this that are making a 
meaningful difference, in terms of completing flights in bad 
weather, greater capacity, greater safety, and those benefits 
will start to compound as well.
    Mr. Ribble. OK. Thank you, the panel, for being here today. 
This has been helpful for me. And, Mr. Chairman, I yield back.
    Mr. Petri. Thank you. Rep. Cohen.
    Mr. Cohen. Thank you, Mr. Chair. First, I would like to 
thank the panel. Several of you have been to Memphis and I 
appreciate your courtesies and service to our country.
    One issue--and I think Federal Express has been a leader in 
working on NextGen, and, of course, Federal Express is a leader 
in all things. In aviation, in package delivery, in sports, and 
every other way. Having made a comment, a word from our 
sponsor, but let me ask.
    I think probably Mr. Huerta might be the correct person to 
ask. I asked you, I think, in Memphis about the proposed rule 
that you all have about structures around airports. And, of 
course, Memphis is one of the cities that helps to become and 
is becoming, or some would say is becoming an metropolis, and 
is a major economic engine for us. And so limitations on the 
size of structures around the airport can be limiting in terms 
of economic development. What is the status of that particular 
rule about safety, aircraft and height of buildings around 
there, and is there going to be comment periods and rigorous 
cost to evaluation examination?
    Mr. Huerta. Sure. Mr. Cohen, I will need to get back to you 
with a specific timetable and steps going forward; but, in 
general, the issue is that we need to find the appropriate 
balance for the areas around airports. We need to plan, not 
only for what are the routine flight paths that everyone takes 
in and out of an airport, but also how can we ensure that, 
should a mishap occur and an aircraft has a missed approach; 
or, something that would be more dangerous, that they have time 
to recover. We need to ensure that there are not hazards in the 
way that would preclude their ability to recover.
    Finding that balance is extremely important. That is 
something that we have to do in a very thoughtful way for the 
reasons that you talked about. The interests of the airport's 
ability to operate, which represents one economic engine and 
one economic benefit, versus surrounding property owners who 
are located near the airport for the obvious reason that they 
want to take advantage of that proximity. But, it's something 
that we're looking at very carefully, and we'll get back to you 
with more detail on what the next steps are forward.
    Mr. Cohen. I appreciate it, and I understand safety is the 
utmost concern, but it needs to be balanced in terms of you can 
still have safety and have the economic development. We have 
great hopes for economic expansion around the airport area. 
Because of Federal Express, so many people have wisely brought 
their distribution centers to Memphis.
    More companies should be thinking about bringing their 
distribution centers to Memphis, because it's so easy from 
there, because of rails, runway, roads, and river, to move 
their product all over the world. In fact, probably, the 
Department of Defense should probably plan on moving its 
operations entirely to Memphis to move everything out of 
Memphis which we could do at a financially successful manner in 
an efficient manner. But, we don't want to have our buildings 
limited so we can't house them when they come there, and I know 
they're all coming.
    Mr. Huerta. And we're saying the same thing. It's finding 
the right balance and ensuring we are operating a safe airport, 
while at the same time providing opportunities for industry.
    Mr. Cohen. And there will be opportunities for comment and 
an analysis based on cost as well?
    Mr. Huerta. We are looking at it carefully. We will get 
back to you with what the process is going forward.
    Mr. Cohen. Thank you very much, and thank you for all of 
your work. And I yield back the balance of my time.
    Mr. Petri. Thank you. Rep. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chair. How about if we pool 
some positive gee's. Dr. Dillingham, can you tell me some of 
the positive things about NextGen and the FAA? What is it doing 
right now?
    Dr. Dillingham. Yes, sir. I think we can point to the fact 
that with congressional urging and reports from both us and the 
IG, we are now beginning to see some goals and metrics for 
NextGen, so the Congress and GAO can better monitor progress. 
Some of the other panel members mentioned that some of the 
demonstration projects that are taking place at the various 
airports around the country are showing stakeholders that they 
can, in fact, benefit from NextGen in terms of fuel savings, 
and reduction in emissions for the community surrounding the 
airports.
    I think, again, progress is clearly based on the fact that 
we still have interested stakeholders who are willing to 
participate, though they are becoming less willing to 
participate as time goes on. We again would say progress is 
being made, albeit not as fast as not any of us might want it 
to occur.
    Mr. Cravaack. Thank you, sir. I am a big believer in 
NextGen, if we can ever get it. Look forward to hearing from 
JetBlue to see how it's affected theirs. Has it alleviated any 
congestion in the airports? Can you comment on that at all?
    Dr. Dillingham. In those airports where the demonstrations 
have taken place, FAA and the stakeholders are reporting that 
they've seen efficiencies with arriving and departing. Some of 
the issues that still remain are related to integrating surface 
management with NextGen improvements. So, getting aircraft to 
the airport is improving, but moving the aircraft on the 
service around is still a work in progress.
    Mr. Cravaack. Man, do I hear you on that one? I would hate 
a taxiing aircraft at Chicago. OK. Gotcha. All right.
    Mr. Scovel, what do you mean when you say that the FAA may 
not be delivering the desired benefits? What, exactly, do you 
mean by that?
    Mr. Scovel. Let me look. You and Dr. Dillingham were just 
talking about the Metroplex initiative and the need to 
integrate procedures with surface management operations, and so 
forth. The key aspect that I would seek to reinforce is that 
FAA should respond to industry's demands. The users' requests 
for a focus on the most advanced levels of procedures that are 
possible, RNP.
    Our data indicates that 67 percent of main line carriers' 
aircraft are equipped for RNP. Forty-nine percent of the 
aircraft are equipped and have crews that are approved to fly 
them. In order to derive the most benefits from advanced 
procedures, which would be precise routes and curved 
approaches, RNP needs to be in place. Our data indicates 136 
solutions were produced by FAA, but only 3 incorporated 
advanced procedures with those precise routes and curved 
approaches.
    So there is a disconnect between what FAA is capable or 
willing, at this point, to produce, and what the most advanced 
segment of the airline carrier industry would like to see 
happen. So there's that difference between what is expected or 
requested and what can be delivered.
    Mr. Cravaack. Do you think this is going to be a good 
return on our investment?
    Mr. Scovel. Absolutely. Come the Promised Land, you know, 
when we all get to Jerusalem and NextGen is in place, it will 
be an excellent return on investment.
    Mr. Cravaack. Amen. OK. Sounds good.
    [Laughter.]
    Mr. Cravaack. On a little but more of a touchy subject in 
this regard, recently, on May 23, 2012, at a staff meeting a 
gentleman by the name of Mr. Hickey, the Deputy Associate 
Administrator for Aviation Safety made what I thought were some 
inappropriate comments. If Republicans win office--``If 
Republicans win office, jobs may be affected. If Democrats win 
office, their jobs would not be affected.'' I think these 
comments are extremely inappropriate, and I would like to know 
where these comments are coming from. Is this an independent 
speaking? Is it coming from the administration? Is it coming 
from the White House? Where is this man speaking from?
    Mr. Huerta. It is certainly not coming from the 
administration or the White House. I take, and the FAA takes, 
any potential violation of the Hatch Act extremely seriously. 
We do understand that the Office of Special Counsel has opened 
up an investigation into this particular instance, and we are 
cooperating fully with that.
    Mr. Cravaack. Good enough for me. Thank you, sir, and I 
yield back.
    Mr. Petri. Thank you. Mr. Duncan?
    Mr. Duncan. Well, thank you, Mr. Chairman. And this will be 
a little bit repetitive, because I share some of the same 
frustration that Chairman Mica and Mr. DeFazio earlier 
expressed, but I read in General Scovel's report. I see these 
headlines, ``Unresolved problems with Iran continue to impact 
the cost and pace of NextGen.'' And then I see it says below 
that, ``ERAM software related problems have caused cost 
overruns and schedule delays.''
    In a staff memo, they have that $640 million has been spent 
on Iran that was meant for other programs. And I suppose that I 
have been to every hearing that we have ever had on NextGen 
from the very start and have been to a couple of FAA facilities 
to try to learn what this is all about and see how it would 
operate. And I sure don't understand all this, but I said at 
maybe the first or the very early hearings on this--that I 
guess I either made a statement or asked the question--was some 
future Aviation Subcommittee going to come in here and hear 
about delays and cost overruns, because that's what everybody 
sort of expected what happened. And, sure enough, it has 
happened; not just on Iran, but on other things as well.
    What I am wondering about, since it is similar to a 
question I asked or a statement I made years ago, are we going 
to have a meeting of the Aviation Subcommittee 6 or 8 years 
from now and hear about additional delays and cost overruns? 
And I understand I've been told over the years that when it 
comes to all this technology that everything is obsolete the 
day they take it out of the box, and I know that there are 
always additional bells and whistles that people want. But, I 
will ask all of you. Do you feel that we are doing everything 
that could be done, or are there any additional things that 
could be done to see that we don't have additional cost 
overruns before this is fully implemented in 2020 or whenever? 
Mr. Porcari?
    Mr. Porcari. Thank you, Mr. Duncan. I think it is a fair 
question and it is one that we take very seriously in the sense 
that we have looked at some of the lessons learned. If you take 
ERAM as one example, that contract would have been structured 
differently. In hindsight, we would have brought in our 
workforce from day one to help us develop it, and that was in 
my opinion a large part of the problem.
    We, if anything, would have had greater interaction from 
the beginning with industry and users, and we have a very 
collaborative effort that Mr. Huerta has described to you. It 
has greatly benefitted the implementation of NextGen, including 
picking some of the early procedural implementation parts of it 
where we determine what and where is operationally implemented 
for benefits.
    It is, I think, not possible to say that there will never 
be any problems going forward with this, but I will tell you I 
have a much greater level of confidence. As the Department's 
largest infrastructure program, it is something that I have 
been very personally involved in. I have a much greater level 
of confidence in where we are headed and the trajectory we are 
on now than a couple of years ago. In part, I would credit 
Acting Administrator Huerta's personal involvement as Deputy 
and continuing as Acting Administrator.
    Mr. Duncan. Anybody else what to--yes.
    Mr. Huerta. Mr. Duncan, when I joined the agency a little 
over 2 years ago, my background was program management, large, 
complex technology deployment. What I saw when I arrived was 
that we had a deployment that was encountering problems. The 
problems we had were that we were starting deployment in live 
facilities. We were running into operational difficulties, 
workforce interface issues, things that posed significant 
challenges that we needed to work through.
    What we did at that time was to put a couple of things in 
place. One was a diagnosis of what the problem was. We brought 
in third parties to look at it. We determined that what hadn't 
occurred early enough in the program was the human interaction. 
Involving the people that are actually going to operate this 
program must be involved in its development. In addition, our 
testing had been insufficient to really understand how this was 
going to work in a real-world environment.
    As a result of evaluating this program, we started putting 
management changes in place. We established a centralized 
program management organization that will bring best practices 
at program management to ensure that we can hit deadlines, that 
we can hit milestones, and that we can hit budgets. That's why 
we elevated and expanded the responsibilities of our NextGen 
organization so that we can ensure that we have appropriate 
system integration, that we're taking account of how one 
project affects other projects, other schedules, and so forth.
    What we wanted to do was make sure that we were using best 
practices that are used in any business for managing a large 
complex undertaking of this sort. It was in June of 2011 that 
we re-baselined the ERAM program. At that time, we said that 
that project was going to be 3 years and 8 months behind 
schedule because of the problems that I told you about, and 
that it was going to cost $330 million more.
    Today, that is still exactly where we are. We have hit the 
milestones that we put in place at that point, and I think that 
we have turned the corner on that program. I certainly wish 
that we had never gotten ourselves into this situation, but I 
think we are well on the way to solving it.
    Mr. Duncan. Well, before I run out of time, let me just say 
this. I mean what is frustrating is years ago when all this was 
started, when it was brought up, I think everybody probably 
expected that there would be cost overruns and delays. I doubt 
there is anybody in this room that is shocked or surprised that 
there have been cost overruns and delays, or that there will be 
in the future. But, let me ask you this. How much have we spent 
on NextGen?
    ERAM is not the whole NextGen program. How much has been 
spent on the whole NextGen program so far, and how much is 
going to be spent before it is fully implemented? And I'm 
wondering if anybody can answer that question. I guess it is 
almost an impossible question; and, I know that this is a 
difficult thing. I know everything looks easy from a distance, 
but I also know that we have an obligation to try to stay on 
top of this.
    Mr. Huerta. We have been spending at a rate of about $1 
billion a year.
    Mr. Duncan. I am sorry. I didn't hear what you said.
    Mr. Huerta. We have been investing in NextGen at a rate of 
about $1 billion a year, with the support of Congress. The 
Federal investment in ERAM is a $20 to $27 billion expenditure 
due to the cost overruns as we have talked about. Now, that 
does not include----
    Mr. Duncan. $27 billion?
    Mr. Huerta. Yeah.
    Mr. Duncan. And that does not--OK. Go ahead.
    Mr. Huerta. That does not include what industry invests in 
equipping their aircraft and everything that would be 
associated with that. From our standpoint, we are managing this 
program as a series of building blocks. We have six foundation 
technologies that are baselined and all are operating within 
their baselines.
    We have adopted an approach which is premised upon best 
program management approaches. That is a risk mitigation 
strategy where we make incremental investments, match them up 
with benefits, so that we can ensure that it makes sense to 
continue making those investments. In a program of this nature, 
investments are being made over an extended period of time, in 
a very dynamic industry that is going through its own changes, 
that deals with uncertainties, such as cost of fuel, and what 
is the market doing. We believe that this is the most prudent 
approach to ensure the best stewardship of the Federal taxpayer 
investment.
    Mr. Duncan. Well, I apologize. I ran over my time. This is 
all very interesting to me. But I remember many years ago they 
told me they had biographical sketches of all the Members of 
Congress down at the Department of Transportation, and at the 
bottom under each Member they had questions typically asked. 
And under most Members, they didn't have questions; but, under 
mine it says, ``How much will it cost?'' And I didn't realize 
that I was so transparent, I guess, but I have been concerned 
about that on this program, and I still have those concerns. 
And it is a fascinating thing, but also a lot of concern too. 
Thank you.
    Mr. Petri. Well, under the next fellow, we'll hear from, 
Mr. Coble, they probably have, have you taken a sharp pencil to 
this program. Harry Coble.
    Mr. Coble. Thank you, Mr. Chairman. I have been involved 
with a simultaneous hearing between here and Judiciary, so I 
have had to play catchup. I apologize for my belated arrival. 
Good to have you all with us.
    Mr. Scovel, I assume that the proposed trip to Jerusalem 
will not depart today?
    Mr. Scovel. It certainly won't, I regret to say.
    Mr. Coble. We all want to go, but not today.
    Mr. Scovel. OK.
    Mr. Coble. Mr. Porcari, do you believe there are any 
stakeholders not fully committed to the proper implementation 
of NextGen?
    Mr. Porcari. At this point I believe all the stakeholders 
are committed to it, and we have worked hard on stakeholder 
interaction and understanding their needs to make sure they see 
the benefits of it. So I believe the stakeholders are 
committed.
    Mr. Coble. So, no naysayers known to you?
    Mr. Porcari. Well, I do think there is appropriate 
skepticism from everyone involved----
    Mr. Coble. I gotcha.
    Mr. Porcari [continuing]. That we get the proper benefits 
for the investment.
    Mr. Coble. Their own balance supportive.
    Mr. Porcari. Supportive.
    Mr. Coble. Mr. Huerta, how will NextGen improve the 
productivity of air controllers, A; and, B, do you believe that 
NextGen has delivered an increased productivity?
    Mr. Huerta. To answer the second question first, I do. But 
I think more needs to be----
    Mr. Coble. Could you pull that mike a little closer to you, 
Mr. Huerta?
    Mr. Huerta. How's this?
    Mr. Coble. Better.
    Mr. Huerta. I do believe that it has increased 
productivity, but much more needs to be done and we will 
continue to deliver more productivity benefits. The major 
benefits that we are seeing, and which we are really focused 
on, is improved air traffic control procedures. You get the 
maximum productivity by focusing on what you can do around 
airports.
    There are two dimensions to that: First, can you reduce 
track miles flow on arrival and departure? What that gets you 
is reduced fuel burn, reduced emissions and reduced cost. 
Another example is something called an optimized profile 
descent, which we are very focused on. Traditional descents 
into airports are a lot like walking down the stairs. That is 
the aviation equivalent of stop-and-go driving in traffic--very 
fuel inefficient. With an optimized profile descent, engines 
idle, so you are reducing your fuel burn.
    All of that represents huge enhancements in productivity. 
So improving the way aircraft approach and depart airports gets 
you a lot more efficiency and gets you a lot more ability to 
manage more aircraft in congested airspace.
    The second benefit that it gets you is the ability to 
``deconflict'' airports. In large, metropolitan areas, say 
Dallas-Fort Worth, because of the nature of older technology 
and just the geography of where airports are located, we need 
to manage airports in conjunction with one another. Traffic at 
DFW affects traffic at Dallas Love, and controllers need to 
manage both in tandem.
    With advanced navigation procedures, we can separate those 
airports, because of the curved approaches that Mr. Scovel 
talked about. And since the tracks do not conflict, that 
greatly increases the capacity of both of those airports. 
That's what we're trying to get at through the deployment of 
advanced navigation procedures, and the benefits are quite 
real.
    Mr. Coble. Thank you, sir. Anybody else want to weigh-in on 
that?
    Good to have you with us. Yield back, Mr. Chairman.
    Mr. Petri. Thank you. And before Mr. Costello has something 
to say, as long as you are here, Mr. Porcari, it's a little 
unrelated to the subject of this hearing, but I wonder if you 
could comment on the status of sort of the international 
negotiations, if that's the correct way of framing it, in 
dealing with the European--what I think and Congress has been 
on record as criticizing--illegal emissions trading scheme in 
that they are trying to impose it extra territorially. Would 
you comment on where that whole issue stands?
    Mr. Porcari. I'd be happy to comment on it. First, we have 
serious legal and policy concerns with the proposed emissions 
trading scheme. It is extra territorial. It is fundamentally 
unfair in its approach, and we believe it's not the right way 
to do it. If you look at precedents, using ICAO, the 
International Civil Aviation Organization, for consensus 
building on international aviation issues is a much more 
effective way to do this.
    We have been clear, both on the record, off the record, and 
at every level with our EU counterparts that this is 
unacceptable, that we do not support it. And, I think if you 
are looking closely at the reaction around the world, you'll 
see that we have a lot of other nations that in concert with 
the United States also believe that the unilateral imposition 
of that emissions trading scheme is inappropriate.
    Finally, there appears to be some recognition on the 
European side of late that there are real consequences for 
doing this. So we will continue to press for the appropriate 
avenues for resolution of an issue like this. We are continuing 
to make it clear that we have serious concern sand do not 
believe it should be implemented. And I think the consequences 
of the European Union moving ahead unilaterally are much better 
understood by the EU these days.
    Mr. Petri. Thank you. Mr. Costello?
    Mr. Costello. Mr. Chairman, thank you. Just a few comments, 
and I think it is worth noting oftentimes we point out when 
there are mistakes made or cost overruns. But I just have to 
say that since I have been involved in NextGen, I mentioned in 
my opening remarks, there was a time when the FAA couldn't tell 
us in laymen's terms what NextGen was.
    It wasn't until Secretary LaHood was appointed Secretary of 
Transportation, and Randy Babbitt, the former Administrator, 
came into office; and, of course, with the Acting Administrator 
in board 2 years ago, that there was in fact stakeholder 
involvement. Many of you heard me say from this seat, and 
actually that seat at that time, we heard Dr. Dillingham. We 
heard General Scovel agree that we needed to get stakeholders 
involved. But, that logjam did not free up until Secretary 
LaHood and Administrator Babbitt came into office, and then we 
started involving stakeholders.
    We started talking about near-term benefits, and we 
actually came up with a blueprint, which Chairman Mica 
mentioned. Many of the things that are in the bill that was 
signed into law in fact came from--the task force came from 
Secretary LaHood, Randy Babbitt and the Acting Administrator 
here today. So I think it is worth noting that much progress 
has been made since that day.
    I remember when Secretary LaHood was nominated. He came to 
see me, and he said: ``What are the challenges with aviation?'' 
And I said, ``You have to do two things and you have to do them 
quickly; and, one of the things is you have got to free up this 
mentality at the FAA that we don't want the stakeholders 
involved. We don't want to hear from them.'' And so to his 
credit and to the credit of the former Administrator, Mr. 
Babbitt, and the Acting Administrator who is here today, we 
have made progress. We have made a long way to go, but we've 
come a long way from just a few years ago. So, with that, Mr. 
Chairman, thank you.
    Mr. Petri. Thank you. And I must say, too, I think 
currently the FAA's internal management competence in this sort 
of process are due in part to several who are here as before is 
leagues ahead of where it was just a couple years ago, because 
this is a different type of process and it takes a different 
type of experience. And we than you very much for your 
testimony, and the first panel is adjourned.
    We will turn to the second panel, and as they are coming 
forward, let me introduce them. It consists of Mr. David 
Barger, who is the president and CEO of JetBlue Airlines. And 
we are particularly appreciative. We know he has a number of 
important commitments and we have to select between them, and 
we appreciate his attendance at this hearing today. In a sense, 
it may be his swan song in that he is finishing up a 
distinguished period of public service as the head of the 
NextGen Advisory Board, and it has been a major contribution 
moving this from dead center, or even slipping back in some 
areas, to making real progress.
    And I think it is to his credit that usually one good 
measure of how someone is doing is whether they are preparing 
someone to take their place and someone who is strong. And I 
think in Bill Ayers, where you have another person of 
competence and experience in this area, and I am impressed by 
the fact I hear from some of his associates that he is blocking 
off some extra time in his schedule so that he can engage in 
helping on this process and turning some of his day-to-day 
responsibilities over to others at the Alaska Airways. So that 
is a tribute to you, in part, and we thank you for that.
    Others on the panel are Paul Rinaldi, who is the president 
of National Air Traffic Controllers Association. He has been 
before us before. Thank you for being here again. And that's 
true also of Ed Bolen, president and CEO of the National 
Business Aviation Association; and, Ms. Sue Baer, Director of 
Aviation, Port Authority of New York and New Jersey.
    Welcome. Thank you all for being here. We look forward to 
you summarizing your prepared statements in about 5 minutes, 
beginning with Mr. Barger.

  TESTIMONY OF DAVID J. BARGER, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, JETBLUE AIRWAYS CORPORATION; PAUL RINALDI, PRESIDENT, 
    NATIONAL AIR TRAFFIC CONTROLLERS ASSOCIATION; ED BOLEN, 
   PRESIDENT AND CHIEF EXECUTIVE OFFICER, NATIONAL BUSINESS 
AVIATION ASSOCIATION; AND SUSAN M. BAER, DIRECTOR OF AVIATION, 
           PORT AUTHORITY OF NEW YORK AND NEW JERSEY

    Mr. Barger. Thank you very much, Mr. Chairman. I appreciate 
the very kind words as well. Thank you, Ranking Member 
Costello, as well, for your ongoing support over the years. And 
to distinguished members of the subcommittee, on behalf of the 
more than 14,000 crewmembers of JetBlue Airways, thank you for 
the opportunity to be here this morning.
    I am delighted to be here at this testimony. This morning, 
I would like to begin by thanking you, Mr. Chairman, for your 
genuine passion on this topic, educating all Americans about 
the importance of NextGen. I know as we have spent time over 
the years we think about, of course, your home State and the 
robust aviation community in the State of Wisconsin, and what 
happens over the course of the most spectacular week of the 
year at the Oshkosh Air Show with the EAA.
    And, with that said, I also juxtaposed my thoughts and 
comments regarding just the home base of operation that I come 
from at New York's John F. Kennedy Airport and the congestion, 
and the airspace challenges that we have across places like the 
New York metropolitan area, Philadelphia, and certainly 
airports here in the Metropolitan Washington area. And all that 
said, Mr. Chairman, and certainly to Ranking Member Costello, 
as well, in all of my meetings over the years, you have 
certainly been passionate about pursuing just real meaningful 
solutions to these problems as if they had been right in your 
own backyard, your own congressional districts across the 
country. And we certainly appreciate that as an industry.
    You have held hearings and conducted informational sessions 
and have always had an open door, as you sought not to assign 
blame, but really in terms of driving a shorter path to 
progress in the future. And I have served for the past 2 years 
as chairman of the FAA's NextGen Advisory Committee. I thank 
you and the Members, again, for today's hearing, and I am 
wearing two hats today, and, that is in the role of the 
chairman of the NAC as well as CEO of JetBlue Airways.
    Now, on the NextGen Advisory Committee, where as you 
mentioned I will soon conclude my 2-year role as chairman, 
we're a diverse group of 28 aviation leaders, really, from 
across the world, that's both volunteer driven and volunteer 
led. We provide consensus-based recommendations on complex 
policy issues to the FAA in response to specific questions or 
taskings that they represent to us.
    Now, the NAC through the RTCA has reported back to the 
FAA's taskings with recommendations or initial reports on 17 
items critical to the implementation of NextGen ranging from 
selecting and prioritizing Metroplex sites, NextGen rollout 
within these sites to performance metrics, equipage incentives 
to the issue of DataComm, and the 17 items have been submitted 
in my written testimony. Now, as I have undertaken the 
equivalent of a graduate level studies course on all things 
NextGen over the past 2 years, in my spare time, I am delighted 
to report that I could not be more pleased with the progress of 
this group that I have chaired, including those, and the 
support of my fellow panelists here with me this morning--and 
also with our partners of the FAA, as you both mentioned in 
your closing comments that we've worked with so closely over 
the past 2 years of my chairmanship.
    My fellow NAC members are participating in our meetings. We 
are voting with our feet and we are there at each and every 
meeting. In fact, over the past 2 years, we have held our 
sessions here in Washington, DC. We have been down at Embry 
Riddle Aeronautical University in Daytona Beach. We have been 
up in New York at Kennedy Airport, and with Mayor Bloomberg at 
Gracie Mansion, and even at the Boeing complex in Seattle 
recently. And, in just a couple of weeks, we'll be hosted by 
the Department of Defense at Wright Patterson Air Force Base. 
The thought here--this in Dayton, Mr. Chairman--is to get out 
and see what is happening across aerospace, whether it is 
education or whether it is the different facets of aviation as 
we talk about these issues tied to NextGen.
    The NAC is engaged. The NAC is committed. And I would be 
certainly remiss if I didn't thank our subchairs over the 
course of the past 2 years: Tom Hendricks from A4A, who has 
since moved on, and also Steve Brown at NBAA for their 
tremendous work, and literally hundreds of volunteers working 
on work groups and task groups. That was really led by RTCA 
with Margaret Jenny, and I would also like to also thank Andy 
Cebula with his help over the years.
    Just as the NAC members are engaged in our work, we have 
been very pleased with the knowledge and level of engagement by 
Acting Administrator Michael Huerta, first as a designated 
Federal official to the NAC while serving as the FAA Deputy 
Administrator. Michael has become even more, not less active in 
our work since being elevated to the role of Acting 
Administrator. With Michael at the helm and with his interest 
in working closely with the aviation community, I am confident 
in our collective ability to overcome some of the barriers to 
implementing NextGen.
    Now, you commented about succession planning. And I am very 
pleased that with my chairmanship sunsetting--and I will remain 
on the committee--Bill Ayres, who is chairman of the Alaska Air 
Group, Bill has been formally leading the Alaska Air Group as 
chairman and CEO, who as an experienced aviator, will be taking 
over the chairmanship of the NAC on a go forward basis as we 
pass the baton at Wright Patterson Air Force Base here in 
October.
    I believe the Greener Skies initiative was illuminated upon 
by both the Deputy Secretary and the Acting Administrator of 
just tremendous success stories. And, while I won't go into 
details about that, this collaboration, this work with the Port 
of Seattle with Alaska Airlines with the FAA, over several 
years, moving flight tracks over water, reducing miles flown, 
optimizing descent profiles and altering air traffic control 
procedures, all enhancing navigational performance, while 
Alaska Airlines, the largest carrier in Seattle along with 
others, they're reducing fuel burn and emissions today, 
reducing noise exposure in the community. And Alaska expects to 
save over 2 million gallons of fuel annually as a result of 
this collaborative effort. This is NextGen that is happening 
today in the Seattle Metroplex.
    Mr. Chairman, the success taking place in Seattle is as 
much about the technological improvements as it is about 
surmounting the nontechnical barriers to implementing NextGen. 
I am expecting that the final tasking from the FAA to the NAC 
during my chairmanship will be to explore these nontechnical 
barriers, and I look forward to recommending paths to 
effectively cut through these barriers in the future.
    A couple of closing thoughts: As I just put on my JetBlue 
hat for today, first of all, JetBlue operates primarily in the 
congested Northeast airspace, with our two biggest focus cities 
being that of New York's Kennedy Airport, one of Sue's 
airports, where we are the largest airline, and also at Boston 
Logan Airport, where we are the largest carrier. And JetBlue 
believes in the promise of NextGen. We certainly do. The 
industry does. Well, candidly, in our airspace, we are 
requiring solutions today, and this is on behalf of the 30 
million people that we are caring, accommodating, over the 
course of 2012 and growing.
    So when we think about some of the partnerships, and, 
again, illuminated, I won't go into details by the Deputy 
Secretary and Administrator, the ADS-B out partnering that we 
are doing in terms of equipping 35 Airbus A320's to pioneer new 
routes, more fuel efficient routes, more emission friendly 
routes, shorter elapsed time routes from the Northeast to 
Florida and the northern Caribbean I think is a very important 
example of collaboration. And, also, I would just say that 
pioneering with the FAA the use of what we would call the RNP 
13 left and 13 right approach into John F. Kennedy Airport is 
also allowing us greater predictability into our home base of 
operations in New York. These unique, performance-based 
navigation procedures utilize a constant vertical descent in 
conjunction with a precise curved flight path resulting in a 
stabilized approach path, shorter flight times, as well as 
reduced fuel burn emissions and noise similar to the Greener 
Skies initiative in Seattle.
    I think in my closing thoughts very good progress is taking 
place, I believe, on behalf of our airline, as I put my JetBlue 
hat on. I think that I would be remiss if I didn't comment that 
we were a little bit disappointed that a new procedure that was 
put into place at LaGuardia Airport has been suspended, because 
we do think the deconflicting some of the airports in the New 
York Metroplex--and this just happened recently--I think we'll 
work through this with a solution, will benefit all of us in 
the New York Metroplex. But all that said, very pleased about 
the partnership that's taking place.
    In closing, NextGen is a vital and necessary evolution for 
the aviation industry. It is just as important for our Nation's 
economy. NextGen will reduce aviation fuel burn, save energy 
and improve the environment. Implementing NextGen will also 
improve the efficiency and safety of aviation while adding jobs 
and strengthening our economy. The case for NextGen has been 
and continues to be compelling. I would again like to thank 
you, Mr. Chairman, Ranking Member Costello, distinguished 
members of certainly the committee, for hosting the panel 
today. I look forward to any questions you might have. Thank 
you again, sir.
    Mr. Petri. Thank you.
    Mr. Rinaldi?
    Mr. Rinaldi. Thank you, Mr. Chairman, Ranking Member 
Costello, members of the subcommittee. Thank you for hosting 
this hearing today on important issue of NextGen.
    NextGen is a catchall phrase over the last 10 years that 
means everything to everybody in the aviation community. NATCA 
is proud to be involved as an essential stakeholder in NextGen 
development and fully participates in the NextGen Advisory 
Committee, which Mr. Barger just spoke of. The NextGen Advisory 
Committee has done an outstanding job of simplifying the 
elevator speech, so to say, of what NextGen really is, of using 
satellite-based technology and streamlining approaches to 
reduce carbon emissions, using best technology to reduce voice 
communications or voice saturation on frequencies.
    That's what NextGen is as we are moving forward in the 
short term and the near term. We have heard a lot about the 
equipment and we have heard a lot about ERAM. Believe it or 
not, ERAM is not considered a NextGen program. ERAM was 
supposed to be implemented by now. Collaboration is key for 
NextGen to work. Collaboration is key for anything to work, I 
think, in life. But ERAM in 2009 when Randy Babbitt took over, 
and when Secretary LaHood was confirmed, and when Michael 
Huerta got involved, we were not involved in ERAM at all. And 
at that time it was already over budget, and it was not 
deployed in any facilities across the country. And it was in 
January 2010 when we actually started to get involved in 
identifying those numbers of areas that we were getting on the 
positions as we were testing ERAM in the back room that it was 
unacceptable and unsafe to run in air traffic control 
facilities to track airplanes.
    Through hard work, through collaboration, through the 
passion of our controllers being involved in ERAM, we are proud 
to say it is up and running continuously in five facilities 
across the country; and, hopefully, we meet the goal in making 
of 2014 being deployed across all of our facilities en route 
facilities. The important thing to note is ERAM started to be 
developed in 2003, and in 2009 it was supposedly ready to be 
deployed, spent 100 percent of its contract, and it wasn't even 
close to being finished.
    In 2 short years we have brought it from not being able to 
work in any facilities to working in five facilities right now. 
And we are working hard, and real important, to get ERAM 
involved in the NextGen discussion. Here is why. ADS-B, which 
we talked about, the satellite-based navigations, DataComm, 
which we talked about, the texting communications between 
pilots and controllers, SWIM, which is the information 
component that will go to the cockpit on real time necessity to 
get there, all of that doesn't work unless ERAM is deployed.
    So we have to focus on ERAM in making sure that that 
actually is deployed properly, continues to be focused on 
there. We put our reps, our reps are very proud of what they 
have done in ERAM, and when we put them in place we said make 
it safer, make it better, and make it work. And the 
collaborations started with developing, testing, training and 
implementing. And we take it short steps at a time, and here's 
why. Let's not ever lose the fact that we are running the 
safest, most efficient system in the world. And we are trying 
to change technology, and it's not a flip of a light switch.
    While we are changing the technology, it is like changing a 
tire on a car that's running down the highway at 65 miles an 
hour. We are still moving 100 percent of the airplanes and 
changing the technology at the same time. So as we 
incrementally take these steps in success, we have to 
understand how we are getting here. We understand how ERAM 
became a complete failure and is over budget, because 
stakeholders were not involved.
    Now that stakeholders are involved, we are seeing the 
success of it. And, as we move forward, and I have heard a lot 
of discussions about future panels on NextGen, we cannot forget 
how we got to the success of ERAM to every program in NextGen, 
that you need real stakeholder involvement, so that when we 
deploy, we train, we test and we develop. They're involved on 
the front end, so we save money and keep it going.
    One of the things I wanted to talk to you about is recently 
one of ERAM programs called TAMRA, which is a terminal 
replacement, and our rep stumbled across a monitor problem 
where it flickers. And when you turn the lights down it just 
flickers, and it's a huge distraction. And for anyone who's 
seen a radar scope, you can't look at that for a long time as 
it's flickering like that.
    We found work-arounds, where we were going to save the 
agency almost $9 million. Now, I know that doesn't seem like a 
lot when we talk about $27 billion, but if we are involved 
early, as we were in TAMRA, that is how we can save money and 
deliver our entire products. Once again, I thank you for the 
opportunity to testify in front of you. I do want to thank you 
for holding this hearing. I urge you in the next Congress to 
hold more hearings so that we continue to keep the focus on 
NextGen and its important programs. Thank you.
    Mr. Petri. Thank you.
    Mr. Bolen?
    Mr. Bolen. Well, thank you, Chairman Petri and Mr. 
Costello. As you know, I am here today both as a representative 
of the National Business Aviation Association and in my 
capacity as vice chairman of RTCA. And you are very familiar 
with both of those organizations. I would like to use my time 
here today to pick up on the theme that I think Congressman 
Costello articulated so well, which is where we were and where 
we are hoping to go.
    You know. Mr. Rinaldi said that when we started on this 
NextGen kind of meant everything to everyone, which is another 
way of saying it meant nothing to anyone. Right? If 
everything's a priority, nothing is. But, I think where we are 
today is NextGen is beginning to mean the same thing to 
everyone, and that's a pretty important accomplishment. We've 
talked today about the fact that NextGen is transitioning from 
ground-based navigation to satellite-based navigation, 
transitioning from analog communications to digital 
communications. And we are doing that for very specific 
reasons.
    We are doing that because we believe NextGen can give us 
substantial capacity increases that will reduce delays. We are 
doing it because we believe that NextGen will enhance safety by 
improving our situational awareness, and we are doing it 
because we believe NextGen, by providing more direct routing, 
can reduce our environmental footprint. So we are embarking on 
this transformation for some very specific benefit. And we are 
laying out a path.
    I think the JPPO has done a great job of laying out a 
vision for where we want to go. And over the course of the past 
several years, RTCA has been taking taskings from the FAA and 
beginning to figure out how we actually move forward very 
clearly. And that movement forward is not without its 
challenges. We are learning that NextGen is not just about 
technologies. Clearly, ERAM is part of it. ADS-B is part of it. 
SWIM is part of it, but it's also about policies and it's about 
procedures.
    It all has to fit together if we are going to move forward. 
We are seeing ourselves beginning to move from a vision to an 
operational system, beginning to take philosophical approaches 
to issues, such as deciding that it's not a big bang, one size 
fits all, let's do it everywhere all the time, but in more 
measured, Metroplex approach that looks at some of the unique 
attributes of the community.
    I think a lot of the progress that we have made so far is 
directly attributable to this subcommittee, the leadership that 
you have provided and the accountability you have demanded. And 
I also want to say that I think a lot of the progress is a 
result of the tremendous leadership that Dave Barger and the 
NAC has been able to provide. The NAC has brought together the 
diverse industry stakeholders that you have demanded.
    We have the military involved. We have general aviation 
involved. We have airports involved. We have the airlines. We 
even have community representatives, and we are all trying to 
move forward, because we understand that we are all going to 
benefit. The question was asked earlier, do all the 
stakeholders support it.
    I can speak for NBAA, and I think I can speak for the 
broader general aviation community saying we do support it, 
because the reality is the system that we have in the United 
States, just like everywhere else, was built largely to 
accommodate the needs of the commercial airlines, and that is 
entirely appropriate. General aviation, including business 
aviation, participates in that, but what we have seen is time 
and time again as airspace becomes congested or airports become 
congested, general aviation gets pushed out a little bit. I 
remember when Midway Airport was a great general aviation 
airport, or Fort Lauderdale Executive, or San Jose or 
Manchester. You see how that begins to evolve.
    We want to make sure that we can expand that capacity, 
enhance the safety, realize the environmental benefits, and I 
think we are moving forward today. We've got a lot of 
challenges ahead. We can see the potholes. We can see the wet 
pavement, but we have an opportunity to move forward, and I 
want to thank you for the leadership and the accountability 
that has been demanded by this subcommittee, because the 
benefits have been very tangible.
    Mr. Petri. Thank you.
    Ms. Baer.
    Ms. Baer. Thank you, Chairman Petri, Ranking Member 
Costello and members of the committee. Thank you for inviting 
me to speak today.
    I am the Director of Aviation for the Port Authority of New 
York and New Jersey. We are the ones responsible for the 
busiest airport system in the country, comprised of JFK, Newark 
International, LaGuardia, Stewart and Teterboro Airports, 
dedicated solely to general aviation. Together, these airports 
serve more than 107 million annual passengers. That means about 
20 percent of all U.S. flights operate into or out of one of 
our airports.
    First, let me begin by applauding the members of this 
committee for delivering a 4-year FAA Reauthorization Bill. I 
particularly appreciate how you included a strict timeline and 
metrics in the bill that will help us analyze the delivery and 
benefits of NextGen. I also have to thank Acting Administrator 
Huerta, who is also our designated Federal officer on the 
NextGen Advisory Committee, together with Dave Barger, who has 
been positively brilliant.
    He has led the NAC, providing careful guidance on how to 
move the NextGen agenda forward, and I am very proud to be 
known as a member of that committee. I was also honored to be 
part of Transportation Secretary Ray LaHood's Future of 
Aviation Advisory Committee, where NextGen was a fundamental 
element of nearly every conversation we had, no matter what the 
subcommittee, and a prevailing theme throughout all the 
committee recommendations.
    I should be clear. I really never intended to learn this 
much about NextGen, but in many ways I just had to. With 
experts like Vicki Cox or Paul Rinaldi here today, I can't 
claim really to be an expert, but I know more than I'd ever 
hoped to about the subject. And it's no secret that our 
airports are consistently ranked at or near the bottom and on 
time performance. And those delays in our airports trickle 
throughout the country.
    MITRE tells us that one in three U.S. flights are affected 
by delays in the New York, New Jersey and Philadelphia 
airspace, and 40 to 50 percent of the national airspace ground 
stops and ground delays occur in New York. That means right now 
about half of all flights in the country being held at a gate 
or delayed on the tarmac can trace their delays to one of the 
airports in the New York/New Jersey region.
    Delays and ensuing capacity constraints have stifled growth 
and effectively put a no vacancy sign on JFK, Newark and 
LaGuardia. Our economists have calculated that for every 
million potential additional passengers whom we cannot serve, 
there are 5,000 jobs that don't get created in our region. So, 
delays are not just an annoyance. They cost money, real money, 
and have real economic consequences. Extra fuel, a new flight 
crew, hotel vouchers, missed meetings, business deals not done, 
extra meals in an airport, and so on.
    In 2010 a University of California, Berkeley study found 
that flight delays cost the United States $32.9 billion a year; 
and, most unsettling of all is the fact that air passengers 
bear the largest burden. Delays are a threat to this Nation's 
global competitiveness. So, how can we, as a Nation, continue 
to rely on an air traffic control system that is fundamentally 
what was used in the 1940s? We can't. And we must act quickly 
to fix this problem, because the cost of inaction is simply too 
great.
    NextGen is the fundamental backbone of the solution. It is 
not the only solution but it is the backbone. Not to be 
selfish, but if I am told that my airports are responsible for 
50 percent of the problem, I really think that NextGen has to 
be implemented in Newark, New Jersey region as soon as 
possible, where it can deliver the greatest benefits to the 
country. But, I'm realistic. I understand the wholesale 
revamping of the way our national airspace functions can happen 
overnight.
    However, by attacking the problem where it is most acute, 
NextGen can deliver improvements to constituents throughout the 
country from Green Bay to Tampa Bay, from Portland, Oregon to 
Portland, Maine, and all the points in between. Because 
according to the 2010 GAO report, our three airports, along 
with Philadelphia, Atlanta, O'Hare and San Francisco account 
for 80 percent of all the departure delays across the entire 
country. So you fix it in New York and a few others, and you 
can fix the problem everywhere.
    The problem in New York is so acute that we can't wait 
until 2018 or 2020, or whatever the date is when the first 
NextGen benefits should be realized. Recognizing that our 
problem was truly an issue of national urgency in 2009, the 
Port Authority established the National Alliance to Advance 
NextGen, a coalition of business, civic and industry groups and 
organizations devoted to getting out the message about NextGen.
    We continued to grow, and last month we reached 1,000 
members. In fact, the thousandth member was the Chicago Land 
Chamber of Commerce from Ranking Member Costello's home State. 
In all, we have members from all 50 States and Washington, DC, 
firms like Sherwin Industries from Wisconsin, organizations 
like the Los Angeles Chamber of Commerce in California, Air 
Dat, LLC, from North Carolina, St. Louis Business Travelers 
Association, and hundreds more. Together, these organizations 
represent tens of millions of U.S. air travelers who are 
demanding improvements to our national air traffic control 
system through the implementation of NextGen technology, 
policies and procedures.
    We have already begun piecing together elements of NextGen 
on the ground, including a revolutionary ground management 
system at JFK that has helped to meter departures and minimize 
delays. We have done that in conjunction with our friends at 
the FAA and the airlines. Using JFK in a very collaborative 
effort it's been very successful. We are working with the FAA 
to expand the program to LaGuardia and Newark airports. At JFK 
alone, this system has saved nearly 5 million gallons of fuel 
and almost 15,000 hours of taxi time annually.
    Over the last decade, our agency has invested more than $1 
billion to make airport operations on the ground more 
efficient. Our initiatives have delivered. We have invested in 
building high-speed taxi way exits, multiple entrance taxi 
ways, minimizing runway occupancy time, enabling a more 
efficient queuing procedure. The bottom line is that tens of 
thousands of hours of delay have been adverted to say nothing 
of the reduction in emissions and environmental benefits that 
come from curbing delays and congestion.
    And, as we move forward with NextGen, we have made a number 
of efforts to be better neighbors, having recently launched a 
single phone number that pulled together all our airports' 
noise complaint hotlines together with a Web site that enables 
the public to express concerns regarding aircraft noise. This 
new system provides feedback in real time, has a standardized 
repository, and offers the ability to analyze noise complaints 
better than we have in the past.
    As we have before, we will share complaint statistics with 
the FAA to ensure that they are aware of the volume and origin 
of complaints so they may consider any operational adjustments 
such as runway selection, if feasible. All of this is well and 
good, except that admittedly these efforts are not making 
improvement, or are making improvements at the margins. It 
doesn't mean we are going to stop, nor will I stop advocating 
for the swift implementation of NextGen.
    Members of Congress, we cannot afford for it not to happen; 
not in this economy; not in any economy, frankly. In a time of 
tightened budgets and other fiscal restrictions, it will prove 
challenging to fully fund NextGen. But, do we instead continue 
to risk the mounting challenges we will face as a Nation stuck 
with a World War II era radar-based Air Traffic Control system?
    With so much at stake, I urge members of this committee and 
Congress to move quickly to implement NextGen Technology. We 
certainly stand ready, willing and able to assist at the Port 
Authority of New York and New Jersey.
    Thank you.
    Mr. Petri. Thank you and thank you all for your testimony.
    Mr. Barger, you have had the opportunity to spend a couple 
of years immersing yourself in some of the issues involved in 
pieces of this problem, and I think you have looked at it from 
the point of view of your own organization and the 
opportunities and challenges. I don't know, but I would be 
remiss if I didn't ask if you have any ideas or suggestions, or 
feelings about how the process is going and how it can be 
speeded up. How skeptical people in the industry--some of them 
feel burned one or two times. This has been on again, off 
again.
    The technology keeps changing, and they're wondering when 
they ought to leap and they actually like to see a return on 
the investment when they do. How can this process be--Mr. Bolen 
said it's a policy and procedure as well as a technology. How 
can we help encourage sort of positive leadership to help move 
this thing forward faster, so that boards see opportunities and 
have something specific investment opportunities that would in 
fact not just involve new equipment, but some new flight plans 
and all the rest so there would be a payoff for their 
organizations? Could you sort of discuss how you see us moving 
this thing forward?
    Mr. Barger. Sure. Thank you so much, Chairman, and if I may 
I think I tend to be a cadence person. And when I think about 
these past 2 years and Bill Ayres now moving into the chair 
role at the NAC, and, by the way, this is working on behalf of 
the very good work of organizations like task force 5, 
previously, collaborating with the FAA. But, ensuring that 
again the opportunity for industry stakeholders to have a seat 
at the table, to respond to these taskings to the FAA, which 
are complex, when you start thinking about Metroplex.
    Seattle is different than New York. North Texas is 
different than Atlanta, but the ability to talk about these 
complex issues and respond to the tasking. So I think first and 
foremost I'd keep the committee, such as the NAC in place, with 
a cadence put in place for Federal advisory meeting cadence 
with the FAA.
    Number two, continue the taskings. And so the taskings that 
I've come across so far from the FAA, such as equipage 
incentives, Metroplex further definition and roll out are 
prioritization, performance metrics. And, by the way, what are 
the metrics? Is it access to the system? Is it lapsed time en 
route? Is it fuel burn? Defining what these metrics are, the 
use of DataComm, right, as Mr. Rinaldi talked about with the 
use of technology to communicate, driving efficiency, I am very 
excited about potentially taskings that talk about these 
nontechnical barriers. So I think cadence, continue the 
taskings.
    We have 28 members, including the leader of SESAR. When we 
talk about the impact over in Europe, including the director 
general of Euro control, including stakeholders here in the 
United States, this harmonization that's so important. And I 
would just close, Chairman, by saying that really the benefits 
of these policies, procedures, the equipage, everybody being on 
the same page, when you look at the return on capital of the 
business case--and I'll take an airline perspective--40 percent 
of our cost of JetBlue, up to 40 percent, is fuel in terms of 
producing a unit of measurement and available seat mile.
    Well, I mean we all are looking at fuel, whether it is Mr. 
Bolen's group with NBAA, whether it is corporate aviation, but 
again, it's access. The benefits are obvious. The return on 
investments are obvious. The business case to the boardroom is 
obvious. And my sense is that's what we have to continue to do 
and last but not least, as Mr. Rinaldi said, we are all using 
the same language, the definition of what it is--what's the 
elevator speech--because we were not, even as airlines, let 
alone the rest of the industry, defining NextGen the same way.
    Sir, thank you.
    Mr. Petri. Well, we tend to, and it is understandable, but 
in Government we try to have rules and be fair and equal for 
everyone. Then there is the tendency for top down and follow 
our rules or you are going to get in trouble, or whatever. And 
in this case it strikes me that you need to get the incentives 
right and get some kind of where people make a decision to 
participate or to move forward faster and have a system that 
has enough flexibility to accommodate that.
    So, for example, if we get the basic technology out there, 
then if an airport, say Dallas-Fort Worth, were to go to get 
its procedures in place to be a NextGen airport, presumably it 
would be more competitive from the point of view of travel to 
that airport. The ticket prices, likely, would be less, because 
the flights would be more efficient. The fuel cost would be 
less, and so on. And that committee would have a little bit of 
an advantage in competing, say, with Atlanta or someone else.
    And why not figure out ways of getting some dynamics so 
that people around the country, who are operating airports or 
are trying to promote the regions, aren't starting to bang on 
us and on the FAA and others saying move this thing forward, 
because there's some opportunities for us here. Let us get 
ourselves approved for this new procedure, because it will make 
us more competitive. Would you comment on that?
    Mr. Barger. Yes, Chairman, and I think two further 
thoughts. One is the theme of best-capable-best-served. And 
other members, including Mr. Rinaldi may have comments 
regarding first-come-first-served versus best-capable-best-
served, not unlike an HOV lane, if you think about access to 
moving on a congested highway. And so I think that when you 
look at this concept, which is one of these nontechnical 
barriers to implementing NextGen, best-equipped-best-served, 
best-capable-best-served, there's different terminology for it.
    My sense is, again, the incentives are going to be obvious; 
and, these two partnerships that JetBlue is collaborating with, 
the FAA, the approach into Kennedy Airport--and I'll take the 
ADS-B out--pioneering offshore from the Northeast down to the 
Caribbean, for us to save 6 minutes en route each way on an 
airplane that burns 750 gallons per hour times $3 and whatever 
it is per gallon, let alone getting the airplane back earlier, 
so that maybe at the end of the day we can operate another 
flight on a multimillion-dollar asset. The incentive is 
obvious.
    One other thought: I think of the success again of the 
Greener Skies initiative in Seattle. This was many years worth 
of work. Alaska Airlines, the FAA for many different components 
of the FAA in the Port of Seattle working to really harmonize 
not just Sea-Tac, but all the type of operations that were 
happening in that airport, because you also want to be careful 
about disadvantaging, right, because there is mixed equipage.
    So I do think a couple thoughts there, sir, and things like 
the issue of best-capable-best-served. It seems so obvious. It 
really does.
    Mr. Petri. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman.
    I was pleased to hear from this panel that we seem to have 
made so much progress from some of the earlier efforts. I just 
would like to know that it's both deep, i.e., that it relates 
to the planning for NextGen and some of the things that were 
specified in the reports by the IG and the others about not 
having yet set parameters for a number of the major programs. 
And, secondly, revisiting a little bit what changed so much, 
and I guess I'd go to Mr. Rinaldi first with the ERAM program. 
I mean what was the change here? What you described was much 
more typical of my experience over many years with acquisitions 
with the FAA.
    Mr. Rinaldi. Sure. Thank you. What changed with ERAM was 
our involvement, our involvement from a human in the loop 
testing at the tech center in Atlantic City before it reached 
the floor out in Seattle and Salt Lake. What they wanted to do 
was deploy it in live traffic, and it just wasn't working. As 
you said, it was tracking the wrong airplanes or it would 
freeze up with a big red X. And once the controllers don't have 
confidence in setting out the position that it's actually 
giving you accurate information, then that's what you rely 
upon. That's how we get through the day. So what happened was 
there was delays.
    Now, we pull it back. We actually test, identify what 
really is problems, and the actual testing is controllers 
hitting the keys that they would normally hit in a routine 
sequence on a regular basis. And what that was doing was 
actually shutting the program down in many cases. And the 
reason that was happening is because you didn't have real live 
testing going on, or real testing going on with air traffic 
controllers. They had, you know, engineers doing it.
    Not anything against engineers, but if you're going to 
build a system for air traffic controllers, you need air 
traffic controllers involved. Once we got to that point, and 
then they had to rewrite a whole bunch of code. Lockheed Martin 
can tell you exactly how much code that they had to write, but 
it was a lot to change the direction of ERAM to actually get it 
to function with human air traffic controllers.
    Once we got to that point, we're incrementally testing it 
now in nine more facilities and each time we test it we develop 
it, we find another problem. But we're not implementing until 
that problem is fixed or we have an acceptable work around of 
that problem; such as, don't touch the ABC key and then hit 
enter. And you get a big work around, so you don't do that.
    The reason I talked about ERAM in my opening was regardless 
of who's in charge of this committee or the White House, or who 
the FAA Administrator is, the NAC has seen it. The industry has 
seen it, and Congress has seen how we have success by having us 
involved in the very beginning. Is it perfect? No. We are not 
there yet with the agency that we're involved at pre-
decisional, very beginning of what NextGen technologies.
    We want NextGen. We want the latest technology. We want 
them to save fuel and be very successful, because we want the 
best aviation system in the world. What it comes down to is us 
really saying is this piece of equipment making it safer, more 
efficient, or making everybody's job better.
    Mr. DeFazio. Good. Mr. Barger, just from your experience 
chairing the committee, do you think we've seen a systemic 
change in the FAA and its relationship with stakeholders, and 
not just air traffic controllers, but all the stakeholders? 
Because in the past as Mr. Rinaldi said there was a 
procurement. They went out, they got engineers involved. Then 
the FAA started sending change orders, and yet there was no 
relationship going on over here that the people were actually 
going to have to implement, either buy the equipment or 
actually operate the system itself.
    Mr. Barger. Congressman, I have seen a change, but again, 
my visibility is from 2 years back chairing the NAC to today, 
and then obviously looking forward on the committee. But, what 
I've learned with RTCA, task force 5, all the work that was 
done before, JPDO, again, longer term, shorter term, and then 
day of, I think the comments by the chair, as well as ranking 
member, regarding the Acting Administrator, Michael Huerta, has 
been 100 percent focused, in place, present, whether it says 
Deputy Administrator or as the Acting Administrator, as the DFO 
in my 2-year term.
    Randy Babbitt before that as well has commented, and then 
people like Vicki Cox in this room, David Grizzle, and a 
significant number of FAA leaders. But, what I think is really 
interesting, Congressman, is that again 28 members on the 
committee, and they're there, whether it's down at Embry Riddle 
or out at Seattle, going into Memorial Day weekend, or here in 
Washington or a hangar in New York. People are truly--they're 
present. And, again, whether you're an equipment provider, 
whether you're building airplanes, you're operating airplanes, 
whatever that make might be, whether it's corporate and whether 
it's general aviation military airline, European, USA, I mean, 
I think that that collaboration speaks volumes to stakeholders 
being engaged. So I can say that it's a very healthy meeting, 
because you know when you have something that's not healthy. 
You absolutely know that.
    Mr. DeFazio. Mr. Bolen?
    Mr. Bolen. Well, I agree with exactly what's been said. I 
think what has changed is now everybody is in the room. We're 
collaborating, and we sense that at the top of the FAA there's 
a commitment. And I think that has led us all to believe this 
is possible. We can do it. I don't want to underestimate, 
however, the challenges that remain ahead. You know.
    Dave Barger mentioned best-capable-best-served. We want to 
make sure that as we go forward no one misinterprets our 
commitment to best-capable-best-served as not-capable-not-
served. One of the reasons we were so enthusiastic about what 
we saw with the Greener Skies initiative up in Seattle is we 
saw that those who invested in the NextGen equipment were able 
to receive shorter approaches and saved fuel. Those who were 
not equipped were treated the same way they have always been 
treated. They weren't suddenly shut out.
    We are going to be operating in a mixed use environment for 
a very, very long time. The military, general aviation and some 
international, there are groups they can't equip. We have got 
to find a way to do that, and I think we are beginning to see 
the pathways. And I think there's this clear vision now on how 
we get there. We need to make sure the policies and the 
procedures support that.
    I do want to make sure we understand. Getting NextGen right 
is not just getting the technologies out there, but getting the 
benefit to be received. It's not enough to have ERAM, ADS-B and 
SWIM. We've got to have more capacity, better safety, reduced 
environmental footprint; and, that is going to be a challenge. 
We are talking about equipage. Are you going to invest in the 
technology and put it on your airplane? Only if I truly believe 
the benefits are there. So I would urge this committee to stay 
very focused as we move forward on whether or not we are 
realizing benefits, not just deploying technologies.
    Mr. DeFazio. Excellent. All right. Thank you. Thank you, 
Mr. Chairman.
    Mr. Petri. Thank you. Mr. Costello?
    Mr. Costello. Mr. Chairman, I don't have any questions, but 
I think it is probably a good time to wrap this hearing up 
based upon what Mr. Bolen just said. I think he is exactly 
right, and I think it is the responsibility of this 
subcommittee. And I know that you will take the challenge on to 
make certain that the benefits, in fact, are there and that we 
are monitoring NextGen as we go forward.
    I just want to thank the witnesses, not only for their 
testimony here today, but for your service on the committee, 
and in particular, you, Mr. Barger. You have taken the time for 
the past 2 years to not only get engaged and get involved, but 
for your leadership. You truly have made a real difference in 
bringing us to where we are today. So we don't want that to go 
unnoticed. Thank you for your service, and we look forward to 
continuing to work with you.
    Mr. Barger. Thank you.
    Mr. Costello. I will be working with all of you in a 
different capacity, but this subcommittee will continue to work 
with you in the future. Thank you.
    Mr. Petri. One of the secrets of America is that many, many 
people contribute in different ways, sometimes sung and 
sometimes unsung, to the success of our national enterprise, 
and this is one example. There are actually many others up and 
down the line and it helps make us a great country.
    So we thank you all for your testimony, and this hearing is 
adjourned.
    [Whereupon, at 12:35 p.m., the subcommittee was adjourned.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
